<html>
<title> - OPEN HEARING: WORLDWIDE THREAT ASSESSMENT OF THE U.S. INTELLIGENCE. COMMUNITY</title>
<body><pre>[Senate Hearing 116-75]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-75

  OPEN HEARING: WORLDWIDE THREAT ASSESSMENT OF THE U.S. INTELLIGENCE 
                               COMMUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, JANUARY 29, 2019

                               __________

      Printed for the use of the Select Committee on Intelligence

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-697 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas                   MICHAEL L. BENNET, Colorado
BEN SASSE, Nebraska
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                            JANUARY 29, 2019

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     3

                               WITNESSES

Coats, Daniel R., Director of National Intelligence; Accompanied 
  by: Haspel, Gina, Director of the Central Intelligence Agency; 
  Nakasone, Gen. Paul, Director of the National Security Agency; 
  Askley, Lt. Gen. Robert, Director of the Defense Intelligence 
  Agency; Wray, Christopher, Director of the Federal Bureau of 
  Investigation; and Cardillo, Robert, Director of the National 
  Geospatial-Intelligence Agency.................................     5
    Prepared statement...........................................    11

                         SUPPLEMENTAL MATERIAL

    Responses to Questions for the Record........................    86

 
                     OPEN HEARING: WORLDWIDE THREAT
                  ASSESSMENT OF THE U.S. INTELLIGENCE.
                               COMMUNITY

                              ----------                              


                        TUESDAY, JANURY 29, 2019

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Risch, Rubio, Collins, 
Blunt, Cotton, Cornyn, Sasse, Feinstein, Wyden, Heinrich, King, 
Harris, and Bennet.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. I'd 
like to welcome our witnesses today, Director of National 
Intelligence, Dan Coats; Director of the Central Intelligence 
Agency, Gina Haspel; Director of the Defense Intelligence 
Agency, General Robert Ashley; Director of the Federal Bureau 
of Investigation, Chris Wray; Director of the National Security 
Agency, General Paul Nakasone; and Director of the National 
Geospatial-Intelligence Agency, Robert Cardillo. I thank all of 
you for being here this morning.
    I'd also like to welcome the Committee's new--two newest 
members, who in typical Senate fashion, are not here yet, 
Senator Ben Sasse of Nebraska and Senator Michael Bennet of 
Colorado. They're both great additions, and I look forward to 
working with them and with you to fulfill the Committee's 
critical oversight mandates.
    Before I go to my formal remarks, I want to extend my 
condolences of this Committee to General Ashley and his 
workforce at the Defense Intelligence Agency, as well as 
General Nakasone and his workforce at NSA. On January 16th, a 
DIA employee and a naval chief cryptology technician were 
killed in northern Syria alongside two other Americans. This is 
a stark and sobering reminder of the dangerous work that the 
men and women of the Intelligence Community do around the world 
on the behalf of the country every single day, often with no 
public acknowledgment. We thank you for your leadership of this 
community, and more importantly, for what your officers do and 
the sacrifices they make on behalf of our Nation.
    This Committee has met in open forum to discuss the 
security threats facing the United States since 1995. The 
nature, scale, and scope of those threats have evolved greatly 
over the last 25 years. Hostile nation states, terrorist 
organizations, malign cyber actors, and even infectious disease 
and natural disasters at different times have been the focus of 
the Intelligence Community's efforts. Our intelligence officers 
have repeatedly proven themselves equal to the task of 
refocusing, reconfiguring, and relearning the business of 
intelligence to keep pace with a threat landscape that's never 
static. When this Nation was attacked on September the 11th, 
counterterrorism rightly became our Nation's security focus, 
and the Intelligence Community responded by shifting resources 
and attention. We learned the ways of our new enemy, and we 
learned how to defeat it.
    We're now living in yet another new age, a time 
characterized by hybrid warfare, weaponized disinformation--all 
occurring within the context of a world producing more data 
than mankind has ever seen. Tomorrow it's going to be 
deepfakes, artificial intelligence, a 5G-enabled Internet of 
Things with billions of internet connections on consumer 
devices. What I hope to get out of this morning is a sense of 
how well prepared the Intelligence Community is to take on this 
new generation of technologically advanced security threats. 
Countering these threats requires making information available 
to those who can act, and doing so with speed and agility. 
Sometimes the key actors will be the Federal Government. Other 
times it will be a city. Many times, it will be a social media 
company, or a startup, or a biotech firm.
    I see a world where greater collaboration between 
Government and the private sector is necessary, while still 
protecting sensitive sources and methods. We have to share what 
we can, trust who we can, and collaborate because we must. The 
objective of our enemies has not changed. They want to see the 
United States weakened, if not destroyed. They want to see us 
abandon our friends and our allies. They want to see us lessen 
our global presence. They want to see us squabble and divide. 
But their tools are different.
    I don't need to remind anyone in the room when this 
country's democracy was attacked in 2016, it wasn't with a 
bomb, or a missile or a plane. It was with social media 
accounts that any 13-year-old can establish for free. The 
enemies of this country aren't going to take us on a straight 
up fight, because they know they'd lose. They're going to keep 
finding new ways of attacking us, ways that exploit the 
openness of our society, and slip through the seams of a 
national security architecture designed for the Cold War.
    What this means is that we can't afford to get complacent. 
We can't find comfort in being good at doing the same things 
that we've been doing for 50 years. Those who would seek to 
harm this Nation are creative, adaptive, and resolute. They're 
creating a new battlefield, and we have been playing catch-up. 
Defeating them demands that we, as members of your oversight 
committee, make sure you have the resources and the authorities 
you need to win.
    Director Coats, I'd appreciate your perspective on how to 
best strike the balance between satisfying existing 
intelligence requirements and preparing the IC to take on the 
technological challenge of the future.
    I'd like to recognize that this will be Director Cardillo's 
last appearance before the Committee. Robert, since 2014 you've 
served as the consummate ambassador for NGA, and this Committee 
thanks you for your more than 35 years of honorable service to 
NGA, the Intelligence Community, and more importantly, to the 
country.
    I'll close here because we have a lot of ground to cover 
today, but I want to thank you again, and more importantly your 
officers, for the selfless sacrifices that help keep this 
Nation safe. Yours is an exceptional mission in that so few 
will ever truly know how much you do in the service of so many.
    Before turning to the distinguished Vice Chairman, I'd like 
to highlight for my colleagues on the Committee, we'll be 
convening again at 1:00 p.m. this afternoon, promptly, for the 
afternoon for a classified continuation of this hearing. Please 
reserve any questions that delve into classified matters until 
then, and don't take offense if our witnesses find the need to 
delay their answers to questions that might be on the fringe 
for the closed session.
    With that, I turn to the Vice Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Well, thank you, Mr. Chairman. And 
let me also welcome our witnesses. Let me extend my 
condolences, as well, for their loss. Let me also echo what the 
Chairman has said, Robert, about your service. Your leadership 
at NGA, your willingness to always push, push, push, and your 
recognition that in many ways we need to change our models and 
how we make sure we make better use of our commercial and other 
partners.
    Today's open hearing comes at an important time for our 
Nation and the world. As I look over the witnesses' statements 
for the record, I'm struck by the multiplicity of threats our 
Nation continues to face, from new threats like cyber and 
online influence, to those that we're more familiar with, like 
terrorism, extremism, proliferation of WMDs, rogue actors like 
Iran and North Korea, and regional instability.
    We've also seen, and see on a regular basis, daily basis 
with some of the news yesterday, an increasingly adversarial 
stance of major powers like Russia and China. At the forefront 
of our Nation's defenses against these threats stand the 
professional men and women of the Intelligence Community who 
you represent. It is, I believe, unconscionable that some of 
these men and women, and in particular the FBI, Department of 
Homeland Security, State Department, and others were forced to 
work without pay for five weeks because of the Government 
shutdown. This is no way to run a country. We count on the 
intelligence and law enforcement professionals to protect us. 
We cannot ask them to do so with no pay and facing threats of 
eviction or losing their health insurance. The method of 
running government via shutdown brinkmanship must come to an 
end.
    The myriad threats we face must also be faced in tandem 
with our allies and partners around the world. As former 
Secretary of Defense Mattis wrote in his resignation letter, 
quote, while the U.S. remains the indispensable Nation in the 
free world, we cannot protect our interests or serve the role 
effectively without maintaining strong alliances and showing 
respect to those allies, end quote. I think that is a lesson we 
all need to take to heart.
    Of the multiple threats we face, I would highlight two that 
I hope we can especially dive into. First, Russia's use of 
social media to amplify divisions in our society and to 
influence our democratic process. This is an area that I know 
was highlighted in our worldwide threat hearing last year, and 
the concern that we and the IC have that Russia would continue 
its malign activities to try to influence the 2018 elections. 
While we did see Russia continue to try to divide Americans on 
social media, and we saw cyber activities by unknown actors 
targeting our election infrastructure in 2018, the good news--
in particular General Nakasone, I commend you--is, I think, we 
did a much better job.
    The question, though, is how do we prepare ourselves for 
2020? How do we make sure that we're fully organized? What is 
the IC's role in fighting this disinformation threat? And how 
can we build upon public-private partnerships with online 
social media companies in a way that works for both sides? This 
is a problem, as the Chairman has mentioned, with the question 
around deepfakes and other areas that technology is only going 
to make more difficult.
    The second issue I'd hope that you would all address today 
is the threat from China, particularly in the field of 
technology. I think we all saw the Justice Department 
announcement yesterday about Huawei. I have to say as a former 
entrepreneur and venture capitalist, I long held the view that 
an economically advanced China would eventually become a 
responsible global citizen that would join the World Trade 
Organization, and whose system would ultimately be liberalized 
by market-based economies.
    Unfortunately, what we've seen, particularly in the last 
two or three years, is the opposite. With the consolidation of 
power by the Communist Chinese party and with President Xi 
emphasizing nationalistic tendencies, an aggressive posture 
towards those nations on China's periphery, and an economic 
policy that seeks by hook or by crook to catch up to and 
surpass the United States economically--especially in the areas 
of technology like AI, machine learning, biotech, 5G, and other 
related areas. Especially concerning have been the efforts of 
big Chinese tech companies which are beholden to the Communist 
Chinese party to acquire sensitive technology, replicate it, 
and undermine the market share of U.S. firms with the help of 
the Chinese state.
    I want to thank DNI Director Coats and FBI Director Wray as 
well as DHS for working with the Committee to take seriously 
the threat from China's whole-of-society approach to technology 
acquisition and to jointly reach out to our business community 
with whom we must work in partnership to begin to address these 
issues. Unfortunately, we've still got a long way to go and 
while Director Coats particularly you--we've gone on some of 
these roadshows together with the Chairman--I think we need 
much more of those going forward.
    I want to ensure that the IC is tracking the direction of 
China's tech giants and to make sure that we counter those 
efforts, particularly as so many of them are beholden to the 
Chinese government. The truth is this is a challenge that will 
only continue to grow.
    I also in closing want to thank not only you but all of the 
men and women who stand behind your organizations, who work day 
in and day out to keep our Nation safe. I look forward to this 
public hearing.
    Thank you, Mr. Chairman. I yield.
    Chairman Burr. I thank the Vice Chairman. Before I 
recognize Director Coats for his testimony let me say to our 
witnesses: a number of the members of this Committee have 
competing committee meetings right now on very important things 
so members are going to be in and out. Please don't take that 
as a sign of any disinterest in your testimony or your answers 
but there are a lot of things going on on the Hill today that 
are priorities from a standpoint of legislative activity.
    Director Coats, it is my understanding you are going to 
give one opening statement for the entire group and then we'll 
move to questions?
    Director Coats. Yes, sir.
    Chairman Burr. The floor is yours.

      STATEMENT OF DANIEL R. COATS, DIRECTOR OF NATIONAL 
  INTELLIGENCE; ACCOMPANIED BY: GINA HASPEL, DIRECTOR OF THE 
 CENTRAL INTELLIGENCE AGENCY; GEN. PAUL NAKASONE, DIRECTOR OF 
THE NATIONAL SECURITY AGENCY; LT. GEN. ROBERT ASKLEY, DIRECTOR 
OF THE DEFENSE INTELLIGENCE AGENCY; CHRISTOPHER WRAY, DIRECTOR 
 OF THE FEDERAL BUREAU OF INVESTIGATION; AND ROBERT CARDILLO, 
    DIRECTOR OF THE NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY

    Director Coats. Mr. Chairman and Mr. Vice Chairman, members 
of the Committee, we are here today and I'm here today with 
these exceptional people who I have the privilege to work with. 
We are a team that works together in making sure that we can do 
everything we possibly can to bring the intelligence necessary 
to our policymakers, to this Committee, and others relative to 
what decisions they might have to make given this ever-changing 
world that we are facing right now.
    During my tenure as DNI, now two years in, I have told our 
workforce over and over that our mission was to seek the truth 
and speak the truth and we work to enhance, to agree with, and 
enforce that mission on a daily basis. I want our people to get 
up in the morning to work to think that this is what our job 
is. Despite the swirl of politics that swirls around on not 
only the Capitol but the world, our mission is to keep our 
heads down, our focus on the mission that we have to achieve in 
order to keep American people safe, and our policy makers aware 
of what's happening.
    So truly the efforts of people sitting here at this table 
and all of their employees and all of our components is not 
really released for the public to know well about, but we 
continue to value our relationship with this Committee in terms 
of how we share information, how we respond to your legitimate 
questions that you bring to us and tasks for us, and we value 
very much the relationship that we have with this Committee.
    My goal today is to responsibly convey to you and the 
American people in this unclassified hearing the true nature of 
the current environment and in the interest of time I'd also 
like to refer you to my statement for the record for a more 
complete threat picture. As I stated in my recent remarks 
during the release of the National Intelligence Strategy, we 
face significant changes in the domestic and global environment 
that have resulted in an increasingly complex and uncertain 
world and we must be ready. We must be ready to meet 21st-
century challenges and recognize the emerging threats.
    The composition of the current threats we face is a toxic 
mix of strategic competitors, regional powers, weak or failed 
states, and non-state actors using a variety of tools in overt 
and subtle ways to achieve their goals. The scale and scope of 
the various threats facing the United States and our immediate 
interest worldwide is likely to further intensify this year. It 
is increasingly a challenge to prioritize which threats are of 
greatest importance.
    I first would like to mention election security. This has 
been and will continue to be a top priority for the 
Intelligence Community. We assess that foreign actors will view 
the 2020 U.S. elections as an opportunity to advance their 
interests. We expect them to refine their capabilities and add 
new tactics as they learn from each other's experiences and 
efforts in previous elections. On the heels of our successful 
efforts to protect the integrity of the 2018 midterm elections, 
we are now focused on incorporating lessons learned in 
preparation for the 2020 elections.
    I would now like to turn to the variety of threats that 
currently exist and may materialize in the coming year. I would 
like to begin with remarks on what I would describe as the big 
four: China, Russia, North Korea, and Iran--all of which pose 
unique threats to the United States and our partners. China's 
actions reflect a long-term strategy to achieve global 
superiority. Beijing's global ambition continues to restrict 
the personal freedoms of its citizens while strictly enforcing 
obedience to Chinese leadership with very few remaining checks 
on President Xi's power.
    In its efforts to diminish U.S. influence and extend its 
own economic, political, and military reach, Beijing will seek 
to tout a distinctly Chinese fusion of strongman autocracy and 
a form of Western-style capitalism as a development model and 
implicit alternative to democratic values and institutions. 
These efforts will include the use of its intelligence and 
influence apparatus to shape international views and gain 
advantages over its competitors including especially the United 
States.
    China's pursuit of intellectual property, sensitive 
research and development plans, and the U.S. person data 
remains a significant threat to the United States Government 
and the private sector. China's military capabilities and reach 
will continue to grow as it invests heavily in developing and 
fielding advanced weapons, and Beijing will use its military 
clout to expand its footprint and complement its broadening 
political and economic influence as we have seen with its One 
Belt One Road Initiative. As part of this trend we anticipate 
China will attempt to further solidify and increase its control 
within its immediate sphere of influence in the South China Sea 
and its global presence further abroad.
    Whereas with China we must be concerned about the 
methodological and long-term efforts to capitalize on its past 
decade of a growing economy and to match or overtake our 
superior global capabilities, Russia's approach relies on 
misdirection and obscuration as it seeks to destabilize and 
diminish our standing in the world.
    Even as Russia faces a weakening economy, the Kremlin is 
stepping up its campaign to divide Western political and 
security institutions and undermine the post-World War II 
international order. We expect Russia will continue to wage its 
information war against democracies and to use social media to 
attempt to divide our societies. Russia's attack against 
Ukrainian naval vessels in November is just the latest example 
of the Kremlin's willingness to violate international norms, to 
coerce its neighbors and accomplish its goals. We also expect 
Russia will use cyber techniques to influence Ukraine's 
upcoming presidential election. The Kremlin has aligned Russia 
with repressive regimes in Cuba, Iran, North Korea, Syria, and 
Venezuela. And Moscow's relationship with Beijing is closer 
than it has been in many decades.
    The Kremlin is also stepping up its engagement in the 
Middle East, Africa, and Southeast Asia, using weapons sales, 
private security firms, and energy deals to advance its global 
influence. Regarding North Korea, the regime has halted its 
provocative behavior related to its WMD program. North Korea 
has not conducted any nuclear-capable missile or nuclear tests 
in more than a year and it has dismantled some of its nuclear 
infrastructure. As well, Kim Jong-Un continues to demonstrate 
openness to the denuclearization of the Korean Peninsula.
    Having said that, we currently assess that North Korea will 
seek to retain its WMD capabilities and is unlikely to 
completely give up its nuclear weapons and production 
capabilities because its leaders ultimately view nuclear 
weapons as critical to regime survival. Our assessment is 
bolstered by our observations of some activity that is 
inconsistent with full denuclearization. While we assess that 
sanctions on exports have been effective and largely 
maintained, North Korea seeks to mitigate the effects of the 
U.S.-led pressure campaign through diplomatic engagement, 
counterpressure against the sanction's regime, and direct 
sanctions evasion.
    Now let me discuss Iran. The Iranian regime will continue 
pursuing regional ambitions and improved military capabilities, 
even while its own economy is weakening by the day. 
Domestically, regime hardliners will be more emboldened to 
challenge rivals' interests and we expect more unrest in Iran 
in recent months. Tehran continues to sponsor terrorism as the 
recent European arrests of Iranian operatives plotting attacks 
in Europe demonstrate. We expect Iran will continue supporting 
the Houthis in Yemen and Shia militants in Iraq while 
developing indigenous military capabilities that threaten U.S. 
forces and allies in the region.
    Iran maintains the largest inventory of ballistic missiles 
in the Middle East. And while we do not believe Iran is 
currently undertaking activities we judge necessary to produce 
a nuclear device, Iranian officials have publicly threatened to 
push the boundaries of the JCPOA restrictions if Iran does not 
gain the tangible financial benefits it expected from the deal. 
Iran's efforts to consolidate its influence in Syria and arm 
Hezbollah have prompted Israeli airstrikes. These actions 
underscore our concerns for a long-term trajectory of Iranian 
influence in the region and the risk of conflict escalation.
    All four of these states that I have just mentioned--China, 
Russia, North Korea, and Iran--are advancing their cyber 
capabilities, which are relatively low-cost and growing in 
potency and severity. This includes threatening both minds and 
machines in an expanding number of ways, such as stealing 
information, attending to influence populations, or developing 
ways to disrupt critical infrastructures. As the world becomes 
increasingly interconnected, we expect these actors and others 
to rely more and more on cyber capabilities when seeking to 
gain political, economic, and military advantages over the 
United States and its allies and partners.
    Now that I've covered the big four, I'll quickly hit on 
some regional and transnational threats. In the Middle East, 
President Bashar al-Assad has largely defeated the opposition 
and is now seeking to regain control over all of Syrian 
territory. Remaining pockets of ISIS and opposition fighters 
will continue, we assess, to stoke violence as we have seen in 
incidents happening in the Idlib Province of Syria. The regime 
will focus on retaking territory while seeking to avoid 
conflict with Israel and Turkey.
    And with respect to Turkey, we assess it is in the midst of 
a transformation of its political and national identity that 
will make Washington's relations with Ankara increasingly 
difficult to manage during the next five years. Turkey will 
continue to see the PKK and related Kurdish groups as the main 
threat to their sovereignty. Under President Erdogan, U.S./
Turkey relations will be important but not necessarily decisive 
for Ankara.
    In Iraq, the underlying political and economic factors that 
facilitated the rise of ISIS persist, and Iraqi Shia militants' 
attempts to further entrench their role in the state with the 
assistance of Iran will increase the threat to U.S. personnel. 
In Yemen, where 75 percent of the population is reliant on 
foreign assistance, neither side of the conflict seems 
committed to end the fighting, and the humanitarian impact of 
the conflict in 2019 will further compound already acute 
problems.
    In Saudi Arabia, public support for the royal family 
appears to remain high, even in the wake of the murder of 
journalist Jamal Khashoggi and the Kingdom's continued 
involvement in the Yemen conflict that has generated global 
pushback. In South Asia, the focus of the region will be 
centered on the potential turmoil surrounding Afghanistan's 
upcoming presidential election, ongoing negotiations with the 
Taliban, and the Taliban's large-scale recent attacks.
    We assess neither the Afghan government nor the Taliban 
will be able to gain a strategic advantage in the Afghan war in 
the coming war year, even if Coalition support remains at 
current levels. However, current efforts to achieve an 
agreement with the Taliban and decisions on a possible 
withdrawal of U.S. troops could play a key role in shaping the 
direction of the country in the coming years. Militant groups 
supported by Pakistan will continue to take advantage of their 
safe haven in Pakistan to plan and conduct attacks in 
neighboring countries and possibly beyond, and we remain 
concerned about Pakistan's continued development and control of 
nuclear weapons.
    In Africa, several countries are facing significant 
challenges that threaten their stability, which could 
reverberate throughout the region. Libya remains unstable in 
various groups--and various groups continue to be supported by 
a variety of foreign actors and competing goals. In the 
Democratic Republic of Congo, a new government will be 
challenged to deal with ongoing violence by multiple armed 
groups and the outbreak of your Ebola in the east of the 
country. And instability is growing in Sudan, where the 
population is angry at the country's direction and President 
Bashir's leadership.
    In Europe, political, economic, and social trends will 
increase political uncertainty and complicate efforts to push 
back against some autocratic tendencies. Meanwhile, the 
possibility of a no deal Brexit, in which the UK exits the EU 
without an agreement, remains. This would cause economic 
disruptions that could substantially weaken the UK and Europe. 
We anticipate that the evolving landscape in Europe will lead 
to additional challenges to U.S. interests as Russia and China 
intensify their efforts to build influence there at the expense 
of the United States.
    In the Western Hemisphere, flagging economies, migration 
flows, corruption, narcotics, trafficking, and anti-U.S. 
autocrats will challenge U.S. interests.
    Venezuela is at a crossroads as its economy faces further 
cratering and political leaders vie for control, all of which 
are likely to contribute to the unprecedented migration of 
Venezuelans. We expect the attempts by Cuba, Russia, and to 
some extent China to prop up the Maduro regime's security or 
financing will lead to additional efforts to exploit the 
situation in exchange for access, mostly to Venezuelan oil.
    We assessed that Mexico, under new leadership, will pursue 
cooperation with the United States as it tries to reduce 
violence and address socioeconomic issues, but authorities 
still do not have the capability to fully address the 
production, the flow, and trafficking of the drug cartels. High 
crime rates and weak job markets will continue to spur U.S.-
bound migrants from El Salvador, Guatemala, and Honduras.
    To close my remarks, I would like to address several 
challenges that span the globe. I already mentioned the 
increased use of cyber capabilities by nefarious actors, but we 
must be mindful of the proliferation of other threats beginning 
with weapons of mass destruction. In addition to nuclear 
weapons, we have heightened concerns about chemical and 
biological weapons. We assess that North Korea, Russia, Syria, 
and ISIS have all used chemical weapons over the past two 
years, which threatens international norms and may portend 
future use.
    The threat from biological weapons has become more diverse 
as they can be employed in a variety of ways and their 
development is made easier by dual use technologies. We expect 
foreign governments to expand their use of space-based 
reconnaissance, communications, and navigation systems, and 
China and Russia will continue training and equipping their 
military space forces and fielding new anti-satellite weapons 
to hold U.S. and allied space services at risk. Space has 
become the new global frontier, with competition from numerous 
nations.
    Terrorism remains a persistent threat and, in some ways, is 
positioned to increase in 2019. The conflicts in Iraq and Syria 
have generated a large pool of skilled and battle-hardened 
fighters who remained dispersed throughout the region.
    While ISIS is nearing territorial defeat in Iraq and Syria, 
the group has returned to its guerrilla warfare roots while 
continuing to plot attacks and direct its supporters worldwide. 
ISIS is intent on resurging and still commands thousands of 
fighters in Iraq and Syria. Meanwhile, al-Qaeda is showing 
signs of confidence as its leaders work to strengthen their 
networks and encourage attacks against Western interests. We 
saw this most recently in Kenya as Al-Shabaab attacked a hotel 
frequented by tourists and Westerners.
    Lastly--and this is important because both the Chairman and 
Vice Chairman have stated this, and it's something that I think 
is a challenge to the IC and to the American people--the speed 
and adaptation of new technology will continue to drive the 
world in which we live in ways we have yet to fully understand. 
Advances in areas such as artificial intelligence, 
communication technologies, biotechnology, and materials 
sciences are changing our way of life, but our adversaries are 
also investing heavily into these technologies, and they are 
likely to create new and unforeseen challenges to our health, 
economy, and security.
    Mr. Chairman and Mr. Vice Chairman and members of the 
Committee, this becomes a major challenge to the IC community 
to stay ahead of the game and to have the resources directed 
toward how we need to address these threats to the United 
States. We look forward to spending more time discussing this 
issue as both of you have raised. With that, I'll leave it 
there. We look forward to answering your questions about these 
and other unmentioned threats.
    [The prepared joint statement of the witnesses follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Director Coats, thank you for that very 
thorough testimony. Every year this hearing has geographically 
increased, and I think this year you have left no region of the 
world untouched with the concern that we might have. And this 
year especially, the threat landscape continues to increase 
from a standpoint of the tools used. I'm sure that much of that 
will be the subject of questions, both this morning and this 
afternoon.
    I want to acknowledge that we have a distinguished group 
joining us this morning from Austria, who represent their 
government. I'm not going to ask them to stand or anything, not 
to distinguish them out of the group, but we're delighted to 
have them with us--being part of the United States Senate 
today.
    I want to notice members that you will be recognized by 
seniority for five minutes. We intend to do one round, and I 
would say sorry to Senator Sasse and Senator Bennet because 
they will be last, and had they been here on time, they would 
have heard the great comments that I made about their addition 
to the Committee.
    [Laughter]
    Vice Chairman Warner. Of course, they still would have been 
last on questioning.
    [Laughter]
    Chairman Burr. With that the Chair would recognize himself 
for five minutes.
    General Nakasone, this is probably directed at you. This 
Committee requested independent third-party researchers to 
produce two reports that comprehensively detail the leveraging 
of U.S. social media companies by Russia with based actors to 
conduct a disinformation and influence campaign in the 2016 
election. Without speaking to sources and methods under your 
current authorities, would the IC be able to conduct the same 
analysis and produce comparable finished intelligence?
    General Nakasone. Mr. Chairman, thank you very much for the 
question, and thank you for your recognition of Chief Petty 
Officer Kent.
    In terms of the work that was done by the two organizations 
that the Senate Select Committee on Intelligence had asked, 
they looked at an internal study with a number of social media 
groups, which is something, as you know, is outside our 
authorities, but was very, very effective for us. As we 
prepared for the 2018 midterm, we took a very, very close look 
at the information that was provided there. We understood our 
adversary very well, and we understood where their 
vulnerabilities also lie.
    Chairman Burr. Good. This to Director Wray and to yourself, 
General Nakasone: is it the IC's assessment that this country's 
adversaries continue to use U.S. social media platforms as a 
vehicle for weaponizing disinformation and spreading foreign 
influence in the United States?
    Director Wray.
    Director Wray. Yes, that's certainly the FBI's assessment, 
not only did the Russians continue to do it in 2018, but we've 
seen indication that they're continuing to adapt their model 
and that other countries are taking a very interested eye in 
that approach.
    Chairman Burr. General Nakasone.
    General Nakasone. It is certainly NSA's assessment as well, 
Mr. Chairman.
    Chairman Burr. An area of increasing concern for this 
Committee is how the production, storage, and usage of data is 
a national security issue. In 2013, IBM estimated that we were 
producing 2.5 billion GB of data every day. And that data 
growth has not been linear. IBM similarly reported that 90 
percent of the world's data had been created in the last two 
years. That data is now being aggregated, curated, and 
trafficked to enable and enhance data-hungry artificial 
intelligence algorithms. How much of a concern should we have 
about protecting data from foreign adversaries? I'll probably 
turn it to Director Wray and General Nakasone on this again.
    Director Wray. Well, I think it's a great concern. 
Certainly we see strong interest from a computer intrusion 
dimension, both from nation states, but also from criminal 
hackers, and increasingly the two in a blended threat way. So, 
we see nation states enlisting the help of criminal hackers, 
which just is a form of outsourcing that makes it even more of 
a menace. So, it's something that we're extremely focused on 
and should be a high priority.
    Chairman Burr. General.
    General Nakasone. Mr. Chairman, I concur with the 
importance of data. It's the coin of the realm today. If you 
think the power of data, not only for information that it can 
provide us, but also, as you indicated, the weaponization of 
it. We see our adversaries very interested in being able to 
procure data. And obviously as Director Wray mentioned, this is 
something that we're very, very focused on, as well, as the 
National Security Agency.
    Chairman Burr. I'll throw out to whoever would like to 
answer: what applications of big data by foreign adversaries 
have you most concerned today?
    Director Coats. Well, certainly China has the capacity and 
the resources to be able to do a lot, but that has not deterred 
other major nations like Russia and others to be aggressive in 
doing this. You have identified this as a significant threat. 
We are awash in data. We have to understand how our adversaries 
use that data against our interests, and how we can prevent 
that from happening, as well as use it for our own purposes 
relative to know what is going on around the world and what 
influence efforts are being thrown at the United States. So 
that was why we hold as a very, very high priority, as you 
mentioned in your opening statement, in terms of how we 
resource our community, Intelligence Community, with the kind 
of tools and weapons needed to address this issue.
    Chairman Burr. Director
    Director Wray. I was just going to add that as the 
challenges of encryption become bigger and bigger on the SIGINT 
side, we're more and more dependent on human sources, and the 
more big data can be exploited by our adversaries, the harder 
it is to recruit and retain human sources. And I suspect 
Director Haspel may have a view on that, as well.
    Chairman Burr. Director Haspel.
    Director Haspel. I think Director Wray captured that 
exactly, and I would just add from the CIA perspective that a 
big focus for us is finding out how our adversaries are using 
big data against us and sharing that with our partners.
    Chairman Burr. I'm going to exercise the Chair for just a 
second for one last question, and this is your opportunity to 
recruit. Your agencies do cutting-edge research on every 
technology you could imagine, from classic spycraft like 
disguising to communications technology that would blow James 
Bond and Q Branch away. What pitch would you make to those in 
school now, or perhaps those working in tech and looking to 
serve a greater purpose, that they should come apply their 
engineering degrees, coding skills, and creativity and work in 
the IC?
    Director Wray.
    Director Wray. I would say there is nothing more rewarding 
than protecting the American people. And we've seen with some 
of our smartest high-tech folks--I can think of one office in 
particular where two of our brightest stars with great talent 
briefly left for what they thought would be greener pastures in 
the private sector, and I was very pleased to see them both 
independently come back only about eight months later when they 
realized the grass was browner.
    General Ashley. If I could Mr. Chairman, I would have 
probably asked you to release the tape of what you just said, 
in terms of really how innovative and how creative and the 
opportunities that the folks in the IC get a chance to engage 
in, far outstrip anything that you see in a Hollywood movie. 
And the other thing I would add to that is imagine when you get 
up every morning that your task, your responsibility is to 
defend the hopes and dreams of 320 million Americans and that's 
something that we relish the opportunity to do that every 
single day and people would want to join that team.
    General Nakasone. Mr. Chairman, our mission sells itself 
when we talk to our people. I would offer as we talk to young 
people at the National Security Agency, I saw a big data, 
artificial intelligence, machine learning, cloud computing in 
places like Baghdad and Kabul in support of our forces long 
before we ever called it that. That's the selling point that we 
emphasize to our people because if it's cutting-edge, we will 
be doing it at the National Security Agency.
    Chairman Burr. Robert.
    Director Cardillo. Mr. Chairman, we are proud of our 
ability to recruit some of the talent you just described. We 
don't do it often on fiscal terms, we do it on psychic terms 
and so serving something greater than oneself for a cause to 
protect the Nation and our interests is one that both attracts 
and retains the lifeblood of our agency, which is our people.
    Chairman Burr. Director Haspel, do you want to take a shot 
at selling something that not many people know about?
    Director Haspel. Well, like my colleagues, CIA officers 
come to Langley for the mission and they stay because of the 
mission and it's really about being part of something that's 
bigger than yourself. And in terms of advanced technologies 
it's a chance to be on the cutting edge and make a difference.
    Chairman Burr. Well, let me just conclude by saying the 
disciplines that come out of higher education and community 
colleges today, all of those disciplines are applicable to the 
agencies that sit before us today. There should be no student 
that doesn't look at this as a way to apply what they've 
learned or the degree that they have. That didn't used to be 
the case. It was all specialized but now it applies to 
everything.
    Director Coats.
    Director Coats. Well, Mr. Chairman, as somewhat of an older 
generation here who has to turn to his grandson to get the TV 
on the right channel, I'm continually amazed--as I get around 
the country talking to colleges and graduates and people that 
are in these STEM positions and studying--of their incredible 
talent. They bring those kind of talents and skills to our 
agencies as you have heard. And it is extremely rewarding to 
see the young people who know they could have a better 
financial deal, a more settled lifestyle, easier and so forth 
and so on, they want to serve this country and they see this as 
meaningful and it exceeds what financial gains they could get 
on the outside. Plus they are able to do some really cool stuff 
in all of these agencies, which we can't talk about here, but 
it is attractive to it. But their commitment to the country and 
commitment to the mission as has been demonstrated here is 
awfully rewarding when you go out and see what these young 
people have and what they are willing to do for their country.
    Chairman Burr. I thank all of you.
    Vice Chairman.
    Vice Chairman Warner. Well, thank you, Mr. Chairman.
    And I agree that the people who work with all of you are 
extraordinarily special Americans, and the mission is 
critically important. I would personally add one other item: 
that if they work for the United States Government they 
actually ought to be paid on time. And I question--I have seen 
the number of Federal employees who worked five weeks plus 
without pay. I'm not sure many folks in the private sector 
would show up five weeks plus without pay on an ongoing basis. 
And while I'm appreciative of the fact that particularly the 
FBI, that your agents will be reimbursed, I do worry; the FBI 
has a number of contractors. Under our current setting, they 
will come out of this five week plus, 35-day shutdown with 
nothing to show.
    And if we cannot guarantee that people that work for the 
United States Government are going to be not used as hostages 
for either side of the political debate, then I think our 
ability to recruit and retain will go down dramatically. I 
don't know if Director Wray, if you want to make any comments 
on that or maybe just punt. But it is something I saw FBI 
agents, I saw Homeland Security agents, I saw air traffic 
controllers working double shifts and then going and driving an 
Uber. I'm not sure I want somebody showing up maintaining the 
safety of our airways with four hours of sleep. But I'd be 
happy to take your comment there.
    Director Wray. Mr. Vice Chairman, needless to say we are 
still assessing the overall operational impact of the shutdown, 
but what's quite clear is that it was incredibly negative and 
painful for the 37,000 men and women of the FBI and their 
families. But I will also say that I could not be more proud of 
their professionalism and their dedication to not let balls 
drop but to keep charging ahead across all of our various 
program areas during that time.
    Certainly, when you talk about contractors, we are very 
dependent, just like every government agency, on contractors 
for a whole range of services and you know we would want to 
make sure that that aspect of our operations doesn't get 
disrupted.
    Vice Chairman Warner. And my hope would be that folks from 
both sides of the aisle will look at how we might make sure--
particularly some of those low-priced contractors often times 
the folks who clean the bathrooms or serve the food--don't have 
to come out of this 35-day shutdown with absolutely no 
compensation at all.
    Let me start my first question Director Wray and Director 
Coats. The Chairman has alluded to it, we've all talked about 
it: this emerging challenge around social media, particularly 
the fact--whether it's Russians or other foreign entities--that 
try to masquerade as Americans. They build large followings; 
they create fake accounts. I think this problem is going to get 
exponentially harder as we move into deepfake technology. A lot 
of policy implications.
    How do we sort through that? How do we, going forward, work 
with our social media company partners to put Americans on 
alert about the volume of foreign-based activity, bots, and 
others who are masquerading as Americans so they are not able 
to further manipulate not just our election process but 
actually to build social divisions?
    Director Wray. Well Mr. Vice Chairman, this is a 
particularly vexing and challenging problem. I think it's going 
to require a holistic response, certainly at the FBI through 
the Foreign Influence Task Force and all of our field offices. 
We are trying to work much more closely not just with our 
Intelligence Community partners, especially General Nakasone 
and the NSA, but also as you say with the private sector.
    And I will say that one of the bright spots between 2016 
and 2018 is how much more cooperatively we are working with the 
social media companies, because there's an awful lot that 
really has to be done by them in this space. And there were a 
number of success stories only some of which we could really 
ever share where the social media companies, based on tips that 
we provided, were able to take action much more effectively, 
much more quickly to block and prevent some of the information 
warfare that the Russians were engaged in. And I think we are 
going to need to see more and more of that. But now that we've 
got some momentum, we are looking forward to growing that 
partnership.
    Vice Chairman Warner. And I think you would agree some 
companies have done well, some have not done as well. I think 
we are going to need to continue to explore this and just basic 
notional ideas of--where I think we don't get into First 
Amendment challenges--where Americans ought to have the right 
to know whether they are being communicated with by a machine 
or a bot versus an actual human being. And some of the research 
done by some of the folks we looked at, in a way, it may be a 
little more positive, it says that the vast volume of traffic 
on the far left and the far right in terms of political 
discourse in social media is actually not Americans but 
foreign-based bots. There may not be as many crazies out there 
as it seems. Editorial comment. But I do think we've still got 
a long way to go. Thank you, Mr. Chairman.
    Director Coats. Mr. Chairman, if I could just add one thing 
to support Director Wray's remarks. Having served on the 
Committee and gone through the frustrations of the interaction 
and information-sharing with private social media companies, 
we've seen significant progress with that. Many of us have sat 
down eyeball to eyeball with its leaders. Our tech teams are 
working with their tech teams. I can't say that's worked with 
every social media company, but it's significantly better 
because there is information we can provide them that's in 
their benefit, and of course we always stress the fact that we 
need to work together to protect our people from the influence 
activities from abroad and threats to the American people. So, 
I'm encouraged having made some trips to several of these 
companies, encouraged with the openness and willingness to see 
what we can do while protecting privacy rights, but also 
ensuring security.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you very much.
    First of all, let me say that I'm always astounded in this 
Committee and in the Foreign Relations Committee with the 
volume of issues that we have to deal with. I think your 
opening statement, Director Coats, indicated how difficult this 
is to process and deal with all of this. In your statement for 
the record, that all of you joined in, again lays this out for 
us and tells us the kind of volume that we have to deal with.
    And we're certainly only going to scratch the surface here 
today, but I want to--I want to focus on something that doesn't 
get as much focus as I think it should. We see these days, 
every time we pick up media or turn on TV they're talking about 
Russia and Russia's ham-handed efforts to affect things in the 
world. And certainly, it's a concern. But in my judgment, and I 
think for many others, the real concern is China.
    We're approaching the end of the first fifth of the 21st 
century and, if we've learned anything, it's that the last few 
decades have convinced us that China, in the 21st century, as 
we proceed through it, is going to be a major competitor of 
ours in every way that there is. Obviously, economically, 
militarily, culturally, and in every other way. And look, this 
is going to happen. We are living in the 21st century. 
Communications and transportation are so different from what 
they were, and we, as the United States, are going to wind up 
having to compete like we never have before with a gorilla 
that's starting to get to be about the same size we are and, as 
a result of that, we're going to have to learn to deal with 
that.
    The thing I really want to focus on is how we're going to 
do with that. We are Americans. We've always competed. We can 
compete, we innovate, we create, we manufacture, we do the 
great things that we do that have really led the world. But we 
can only do it if we are operating under a rule of law and that 
is something that is greatly missing at the present time as 
China tries to compete with us.
    The poster child for me is a local company we have an 
Idaho, Micron Technology. Most of you have heard of them. 
They're the second largest manufacturer of memory in the world. 
And they have had a recent case where Chinese nationals stole 
intellectual property and then took it back to China and are 
now suing Micron in China through a state-owned entity and a 
state-owned court in front of a state-owned judge. And this is 
the kind of thing that we just can't have.
    I had a spirited discussion with the Chinese Ambassador 
about this as he attempted to defend the undefendable. His 
suggestion was that things aren't as advanced in China as they 
are here. Well, I get that. They've come a long, long, long way 
in a few decades, but if we're going to do this and keep the 
world order right side up, China is going to have to develop 
their rule of law and live by it much better than what they 
have recently. We just saw again, the indictments against the 
Huawei official. In defense of the Department of Justice, 
Department of Treasury, and others, they've indicted these 
Chinese people that have affected Micron.
    And the question I have for you is, after listening to the 
Chinese Ambassador, I'm not wholly convinced that their efforts 
are going to be as robust as they need to be to get China 
right-side-up when it comes to the rule of law. And when I'm 
talking about the rule of law, I don't mean just covert theft, 
but I mean what I call overt theft. And that is where they 
require businesses, as we all know, to divulge their 
information before they can do business in China and then 
having the kind of restrictions they have on them in China. And 
all of this causes us real difficulties as we attempt to 
compete.
    Director Coats, I wonder if you could address that, or 
assign it to somebody there at your panel. I'm looking for what 
do we see in the future, number one, and number two, how can we 
try to get our arms around this to do something about it?
    Director Coats. Well, I'll start it, but I'd like to turn 
it to Director Wray, relative to what was just released 
yesterday, which pointed, I think, in the direction of what you 
were talking about. But frankly, while we were sleeping in the 
last decade and a half, China had remarkable rise in 
capabilities that are stunning. A lot of that was achieved, a 
significant amount of that was achieved by stealing information 
from our companies, by inserting Chinese in certain of our 
labs, or bringing back technological stolen properties, which 
China engaged. You can talk to any number of everything from 
automobile manufacturers to sophisticated software as well as 
R&D for military, and I think General Ashley can speak to that 
on the military side.
    I think we could go down the panel here and discuss for a 
significant amount of time the kind of actions China has taken 
to become a competitor, but also to gain superiority and what 
they're doing and how they're spreading around the world 
through their Belt and Road Initiative and a number of other 
initiatives. It is a serious issue that has to be dealt with. 
You are right on target in terms of saying that rule of law and 
international norms and fairness in trade and engagements is 
not the Chinese model.
    And to counter it, we have to expose it. It was exposed 
yesterday and a significant way relative to telecommunications 
and Director Wray can talk about that. We have alerted our 
allies. They are now second-guessing and questioning their 
initial responses to China. Oh, it's a great market, we need to 
get over there. Don't worry about anything else except selling 
a product. They're now finding that their product has been 
duplicated by the Chinese and sold for half the price because 
they didn't have to spend as much money on research and 
development.
    So, we are working with the Chairman, Vice Chairman, and 
with the Committee, actually, to try to be as transparent as 
possible with our company heads. We have been traveling around 
the United States meeting with CEOs and others. I think I ought 
to stop right there and--and the rest of this ought to go into 
a secure setting in terms of how we are dealing with this. But 
I'd love to turn to Director Wray relative to what they are 
doing.
    Director Wray. Senator, I completely share your 
observations and I would just say that one of the things that 
the American people I think are now sort of waking up to 
understand is that the lines between the Chinese government and 
the Chinese Communist Party are blurred, if not totally erased. 
The lines between the Chinese government and Chinese state-
owned enterprises, the same. The line between the Chinese 
government and ostensibly private companies, for all the 
reasons you described, and especially the line between lawful 
behavior and fair competition and lying and hacking and 
cheating and stealing.
    And one of the things that I've been most encouraged about 
in an otherwise bleak landscape is the degree to which, as 
Director Coats was alluding to, American companies are waking 
up. American universities are waking up. Our foreign partners 
are waking up. And it's one of the few issues that I find when 
I engage in the interagency and up on the Hill, covering from 
one of the spectrum to the other, there seems to be actually 
more consensus than I've ever seen before in my career. And I 
think that's a positive and we need to build on that.
    Chairman Burr. Do either of the generals have--General 
Ashley?
    General Ashley. Yes, sir. Sir, you laid out the problem set 
very well and what's been highlighted, this isn't just a U.S. 
issue, this is a global issue. When you think about the 
Internet of Things, when you think about the nature of global 
business and how corporations are integrated. And if it touches 
a company in Australia who may have a relationship with a 
company in the U.S., then we become connected. From a military 
standpoint, when you look at major acquisition from a Defense 
Intelligence Agency, one of the things we put against this is 
the Supply Chain Risk Management Threat Analysis Center.
    So when DoD looks for major acquisition, we do the due 
diligence and research against those companies, but that 
challenge is getting more and more complicated, because you 
think they either buy it, they steal it, or they can build it. 
But the nature of that business, you have things like white 
labeling where you don't necessarily have to disclose the 
relationship, where you could sell a semiconductor, chip, piece 
of software that ostensibly it is from your company, when in 
fact it may have been manufactured by a Chinese company. So 
that's the due diligence that we have to apply to look at the 
supply chain across all acquisition. And we've got to bring all 
our partners in and illuminate the challenge and make sure 
they're doing the same due diligence, whether it's through 
CFIUS or other protocols.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Director Coats, in this hearing last year, you testified 
that you would recommend minimal access to classified documents 
to anyone without a permanent security clearance. You made that 
statement with regard to reports of multiple holders of interim 
security clearances in the White House. And now we are seeing 
published reports that dozens of times the White House has 
overruled the career FBI experts responsible for adjudicating 
security clearances, granting top-secret clearances to White 
House officials. Would you still recommend minimal access to 
classified documents to those White House officials, since FBI 
experts recommended that they not be given those top-secret 
clearances?
    Director Coats. I do support providing all the information 
necessary for not only the White House, but for all of our 
branches relative to providing security clearance. They have 
the authority to do that. We issue guidelines in terms of 
what----
    Senator Heinrich. I understand they have the authority.
    Director Coats [continuing]. Ought to be adhered to.
    Senator Heinrich. I want to know, do you think that the 
White House should take seriously the recommendations of those 
FBI experts?
    Director Coats. To my knowledge they do take seriously. It 
is their decision based on a whole number of factors. We've 
seen every Administration issue clearances based on how they 
assess what is provided. Our job is to provide them the best 
information we have relative to security clearance processes so 
that they have the full picture in front of them when they make 
that decision.
    Senator Heinrich. Speaking of the full picture, last year 
we passed the SECRET Act. As the Director of National 
Intelligence, do you think it's problematic that the 
Administration has not complied with the portion of that law 
requiring the White House to report on its process for 
conducting security clearance investigations?
    Director Coats. I'm not aware that that has happened. I'd 
be happy to look into that.
    Senator Heinrich. I would appreciate that.
    Director Wray, as I mentioned, we're seeing public 
published reports that numerous times the White House has 
simply overruled career FBI experts responsible for 
adjudicating those clearances. In your view, were there valid 
reasons given for why the FBI's expert advice was overruled so 
many times?
    Director Wray. Senator, I think there may be some confusion 
about the way the process actually works. The FBI is, in the 
context of providing background investigations for people other 
than its own employees, is what's called an ISP, or the 
investigative service provider. So, we essentially do it at the 
request of whoever the requesting entity is. In this instance 
it would be the White House. And I think where the confusion 
is, is what we do is we assemble the information, we provide 
the factual information. We do not actually make 
recommendations one way or the other about the clearances. The 
decision about what to do based on those facts is entrusted by 
a long-standing process to the requesting entity. So, we 
provide the information, but then they make the call.
    Senator Heinrich. Thank you, Director.
    Director Coats, I want to come back to you for a moment. 
Your office issued a statement recently announcing that you had 
submitted the Intelligence Community's report assessing threats 
to the 2018 midterm elections to the president and to 
appropriate executive agencies. Our Committee has not seen this 
report. And despite Committee requests following the election 
that the ODNI brief the Committee on any identified threats, it 
took ODNI two months for us to get a simple oral briefing, and 
no written assessment has yet to be provided.
    Can you explain to me why we haven't been kept more fully 
and currently informed about those Russian activities in the 
2018 election?
    Chairman Burr. Director Coats, before you respond, let me 
just acknowledge to the members that the Vice Chairman and I 
have both been briefed on the report, and it's my understanding 
that the report at some point will be available.
    Director Coats. Yeah, the process that we're going through 
were two 45-day periods, one for the IC to assess whether there 
was anything that resulted in a change of the vote or tampering 
with machines, what the influence efforts were, and so forth. 
So, we collected all of that, and then the second 45 days, 
which we then provided to the Chairman and Vice Chairman, and 
the second 45 days now is with DHS and DOJ--looking at whether 
there is information enough there to determine what kind of 
response that they might take. We're waiting for that final 
information to come in.
    Senator Heinrich. So the rest of us can look forward to----
    Director Coats. So that will be coming, coming shortly.
    Senator Heinrich [continuing]. The rest of us can look 
forward to reading that report?
    Director Coats. I think we will be informing the Chairman 
and the Vice Chairman of that, yes, of their decisions.
    Senator Heinrich. That's not what I asked. Will the rest of 
the Committee have access to that report, Mr. Chairman? 
Chairman Burr.
    Chairman Burr. Well, let me say to members we're sort of in 
uncharted ground, but I'd make the same commitment I always do, 
that anything that the Vice Chairman and I were exposed to, 
we'll make every request to open the aperture so that all 
members can see it. I think it's vitally important, especially 
on this one. We're not to a point where we've been denied, or 
we're not to a point that negotiations need to start. So, it's 
my hope that once the final 45-day window is up, that is a 
report that will be made available probably to members only.
    Senator Heinrich. That would be my hope as well.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Director Wray, as we keep talking about China--and this 
takes off on what Senator Risch has already asked--using the 
academic community and the universities, commercial espionage, 
the forced transfer intellectual property, embedding themselves 
in the potential end of the supply chain, obviously the 
traditional counterintelligence work that they do and the like, 
is it not fair to say that China today poses--just looking at 
the scale and scope of the threat--that China today poses the 
most significant counterintelligence threat this Nation has 
faced, perhaps in its history, but certainly in the last 
quarter century?
    Director Wray. Well, I'd hesitate to speak, you know, 
categorically about the entire course of history, but I 
certainly would----
    Senator Rubio. Well, let's limit it to 25 years. How's 
that?
    Director Wray. But I would certainly agree with you, 
Senator, that as I look at the landscape today and over the 
course of my career--I still think of myself as a little bit 
young--that the Chinese counterintelligence threat is more 
deep, more diverse, more vexing, more challenging, more 
comprehensive, and more concerning than any counterintelligence 
threat I can think of.
    Senator Rubio. And in that realm, would it not make sense--
and perhaps this is for you, Director Coats--that we would have 
a more coordinated approach to educate and prepare all the 
departments and agencies of government, as well as businesses, 
universities--I mean just the scale and comprehensive nature of 
the threat--would it not make sense to have some high-level 
coordination or coordinated approach to be able to prepare all 
these different entities in our economy and society to deal 
with this threat?
    Director Coats. We are working carefully with the 
Committee. Particularly Senator Warner and Senator Burr both 
have engaged with us in terms of putting a program together to 
do just that. I'd turn to General Ashley for his comments on it 
also.
    General Ashley. So, the fact that we're having this 
discussion and that you've highlighted that, even last year we 
talked about the Confucius Institutes. You know, that word gets 
out. Since 2014, 13 universities have closed down the Confucius 
Institutes. U.S.-wide, I think the number is about 100. But 
again, my previous comment in terms of this is a global issue, 
while we've closed down about 13 in the U.S., there's been 
about a 23 percent increase globally in Asia, Europe, and other 
places, and there's probably about 320-plus Institutes that 
exist globally. So, the education is getting out from a U.S. 
standpoint, and it's trending the right way slowly. But again, 
it is a global problem, and we're as weak as the relationships 
with some of those partners subject to influence.
    Senator Rubio. This is now where I make the obligatory 
pitch. Senator Warner and I have filed a bill that creates an 
office of critical technologies to help coordinate the response 
to this threat across the board, and I know everybody on this 
Committee is interested in this topic.
    I want to switch gears for a moment and maybe ask you this, 
Director Coats, as well, if we look at the situation in 
Venezuela, which usually I raise in this Committee, and people 
know it's important, but now it's really topical. So we've had 
3 million migrants flow primarily into Colombia, Peru, and 
Ecuador. It's projected to be five million, if current trends 
continue by the end of this year. That would be a rival number 
to what we've seen in the Syria situation, and it most 
certainly has had a destabilizing effect on Colombia and other 
neighboring countries to the point where very few nations could 
take in one million migrants in one shot, not to mention that 
quickly. Imagine two million and the impact it's having on 
their government budgets, their healthcare systems, and the 
like. We know from Department of Justice filings and sanctions 
from Treasury that their government doesn't just tolerate drug 
trafficking, they give it the protection of government, and 
many high-level officials are active participants in narco-
trafficking. We know that they have a relationship, long-
standing relationship, with Iran and with Hezbollah. We know 
they have openly and repeatedly--at least Maduro has--invited 
the Russians and Putin to establish either a rotational or 
permanent presence somewhere in Venezuela, thereby creating a 
Russian military presence in the Western Hemisphere. In fact, 
they flew, about three weeks ago or a month ago, two Russian 
nuclear capable bombers into the Caribbean Sea.
    Seeing all these factors, what's happening in Venezuela--we 
care a lot about democracy, we care a lot about freedom, we 
care a lot about human rights--but when you add all these 
things together, the migratory impact on regional partners and 
how that spills over into the United States, their relationship 
with Iran and Hezbollah, the drug trafficking--because all that 
cocaine is destined to come into our streets--the invitation to 
the Russians to potentially have a military base, whether it's 
rotational or permanent, in our hemisphere--is it not in the 
national interest of the United States of America that the 
Maduro regime fall and be replaced by a democratic and more 
responsible government?
    Director Coats. Well, I think everything you said has been 
very open to the American public relative to the situation that 
exists in Venezuela. Our job as an Intelligence Community is to 
provide all of the relevant information that you just talked 
about in terms of what the impact of what's happening in 
Venezuela and then throughout the region, and the threat that 
evolves from that.
    The decision as to how to address that obviously is a 
decision by the Executive Branch and by the President 
ultimately with the support of the National Security Council. 
So, we do obviously face a dire situation that has enormous 
consequences. I think nobody's more aware of that than you. 
You've been the person we turn to for--almost ready to invite 
you into the Intelligence Community given the information that 
you can provide for us given your interests.
    I was remiss in not naming you as someone relative to China 
who's taken a forward effort on the part of the Committee and 
joining us in a number of ways to talk to CEOs and others 
around the country relative to the Chinese threat.
    With Venezuela, it's a very tenuous situation right now as 
you know. We have taken steps in terms of recognition of the 
opposition as the legitimate president of Venezuela. Yesterday, 
the Treasury Department announced oil sanctions against a 
Venezuelan oil company. They are a major company that we do 
business with here also. So, steps are being taken and we have 
a lot of support from a lot of our allies. So as I said, it's a 
very fluid situation that I think hopefully will be 
successfully resolved with the support of Venezuelan people. 
But we do assess--and I'll turn to General Ashley here--the 
influence of the military on that decision, I think--Venezuelan 
military on that decision probably is key to what direction we 
might go in.
    General Ashley. So, I would say that everything you laid 
out is correct. We expect to see another two million refugees 
leave, to add to the three million that will go into the 
region. The relationship that they have with Russia, China, 
Iran is a long-standing one, pre-existing.
    The reference you made to the TU-160 Blackjacks that flew 
those strategic bombers--third iteration of that--first time 
was in 2008 and then 2014, and we've seen it again. As far as 
presence on the ground, we can talk a little bit more detail in 
a closed session about where we see Russia and China going with 
that greater instability. But in the open press, what you've 
seen thus far really is nothing more than just vocal support 
that's coming out of Moscow and that's coming out of China as 
well. But there is a relationship there from a military 
standpoint in the way of training. Lots of Venezuelan officers 
go to Russia for training and there is a reciprocal 
relationship for equipping them as well.
    Senator Burr. Senator King.
    Senator King. Thank you, Mr. Chair. In light of Senator 
Rubio's comments, I'd just like a note of caution. He listed 
refugee flows, human rights abuses, and corruption. There are 
lots of countries in the world that meet that description and 
our right or responsibility to generate regime change in a 
situation like that I think is a slippery slope. I have some 
real caution about what our vital interests are and whether 
it's our right or responsibility to take action to try to 
change the government of another sovereign country. That same 
description would have led us into a much more active 
involvement in Syria, for example, five or six years ago, other 
parts of the country. I just wanted to note that.
    Senator Burr, I loved your opening statement. It was very 
thoughtful and you came up with a wonderful formulation for, I 
think, a mission of this Committee and also the Intelligence 
Community of ``creative, adaptive, and resolute'' and I must 
say it reminded me immediately of my old high school football 
coach who put it somewhat less elegantly. He said he wanted us 
to be agile, mobile, and hostile. I think that may be a less 
elegant way to put it, but the same principle.
    On Huawei, it seems to me they have to decide they are 
either going to be a worldwide telecommunications company or an 
agent of the Chinese government. They can't be both, and right 
now they are trying to be both. And I think the world's 
customers which the Chinese are certainly sensitive to are the 
best enforcers of that principle.
    Director Haspel, one quick, I think a yes or no question, 
and I think Sen--I almost said Senator Coats--Director Coats 
referred to this in his opening testimony. Is Iran currently 
abiding by the terms of the JCPOA in terms of their nuclear 
activities?
    Director Haspel. Senator King, I think the most recent 
information is the Iranians are considering taking steps that 
would lessen their adherence to JCPOA as they seek to pressure 
the Europeans to come through with the investment and trade 
benefits that Iran hoped to gain from the deal.
    Senator King. But since our departure from the deal, they 
have abided by the terms. You're saying they are considering 
but at the current moment they're in compliance?
    Director Haspel. Yes, they are making some preparations 
that would increase their ability to take a step back if they 
make that decision. So, at the moment, technically they are in 
compliance, but we do see them debating amongst themselves as 
they've failed to realize the economic benefits they hoped for 
from the deal.
    Senator King. Thank you.
    Director Haspel and General Ashley, Mr. Khalilzad, our 
envoy to Afghanistan, has said that part of the basis of the 
current talks with the Taliban is that they would prevent 
Afghanistan from ever becoming a platform for international 
terrorist groups. And of course, that was the basis of our 
original intervention.
    Do we believe them? Are they capable of that? Did they 
learn something from having given safe haven to Osama bin 
Laden? Do we believe that there is a mindset change that that 
could be an enforceable or at least a reasonable expectation?
    Director Haspel.
    Director Haspel. Yes, Senator, and you are referring to 
very recent and fresh news that has come out of Ambassador 
Khalilzad's very intensive efforts over many months now but 
particularly over the last eight days in Doha where he has been 
engaged in talks with the Taliban to seek to achieve a 
framework under which we can conduct----
    Senator King. Can we believe that the Taliban will do that?
    Director Haspel. Well, because we have inflicted severe 
damage on al-Qaeda in the AfPak theater, I think that all of us 
at this table would agree that it's very important that we 
maintain pressure on the terrorist groups that are there. And 
so if there were an eventual peace agreement, a very robust 
monitoring regime would be critical and we would still need to 
retain the capability to act in our national interests if we 
needed to.
    Senator King. Thank you.
    Another note. Director Coats you mentioned--I wouldn't say 
almost in passing but it was just a sentence of your 
introduction which I think is a very important point and maybe 
the big news of right now what's going on--increased 
cooperation between Russia and China. For a generation that 
hasn't been the case. That could turn out to be a very big deal 
on the horizon in terms of the United States. If those two 
countries begin to work together systematically, that could be 
a big problem for us.
    One more quick question. Director Wray, you are doing a lot 
of monitoring and working on the intervention in our election 
process. One thing we are worried about is deepfake which we've 
used but not--not defined. That's when they use technology to 
create essentially a false reality--an apparent speech by a 
candidate where different words are coming out of their mouth 
than what they actually said. Here's my question.
    If in the next two years and particularly in the year 
preceding the next election, your agency determines that this 
is happening and that it's sponsored by a foreign entity, will 
you inform the candidates that are the victims of this, the 
committees? My concern is it's one thing for the Intelligence 
Committee to know that this is happening, but if they don't 
inform the people who are being victimized, who are being 
attacked in this way, I think that really blunts the 
effectiveness of the availability of the intelligence.
    Director Wray. Senator, we have a fairly established 
protocol that we work through to try to determine whether or 
not we have information that is reliable enough and immediate 
enough and actionable enough to be able to notify a victim. The 
Department of Justice has a set of guidelines that goes through 
that. They've recently been expanded to provide us more 
flexibility in the foreign influence or maligned influence 
arena, which this would be a permutation of and we would expect 
to follow that process.
    Senator King. I hope you'll review that process, because 
telling the world of a maligned influence a month after the 
election doesn't do anybody any good. So, I hope that could be 
reviewed and thought about in terms of letting people know as 
soon as possible when there's credible evidence of a foreign 
deepfake or other kind of cyberattack on a campaign.
    Director Wray. Just to be clear, I wasn't referring to the 
sort of post-election process.
    Senator King. No, I understand.
    Director Wray. Yeah, the protocol that I'm talking about is 
that's where the actionable piece of it comes into play, right? 
Obviously, the ability to be able to contact, just like we do 
in the cyber arena.
    Senator King. I just want to be sure our policies keep pace 
with the magnitude and accelerated nature of the threat.
    Director Wray. Well, we clearly need to be, to your point 
about agility, we clearly need to be able to adapt as the 
technology adapts and as Director Coats said in his opening, we 
would expect our foreign adversaries in the maligned influence 
space to keep adapting as well, which is a source of concern.
    Senator King. We want you to be agile and mobile, maybe not 
hostile. Thank you.
    Director Coats. Mr. Chair, General Ashley has a comment he 
would like to make.
    General Ashley. Thank you. If I go back to your comment on 
Huawei, you know, Huawei needing to make a decision about the 
direction that they want to take with regards to how do they 
support the Chinese government, or as an independent business. 
The challenge in which we've laid out in part of the dialogue 
is that decision does not lie with Huawei. It lies with the 
CCP. It lies with Xi Jinping in the way that they are starting 
to centralize greater the management of those businesses. So 
therein lies the challenge, where you see a decentralization 
and execution of capitalism. But really you have this kind of 
authoritarian capitalism in the way that the government 
provides oversight and puts very strict rules in place. It 
makes it very problematic for all of those businessmen to 
operate without providing that information back to Beijing.
    Senator King. And I think the market has to tell them 
that's not acceptable. Thank you.
    General Ashley. Agree.
    Chairman Burr. Senator Collins.
    Senator Collins. Director Haspel, Director Coats described 
this morning a Russia that is aggressive across all fronts. Did 
the CIA have any concerns about the Treasury's actions to ease 
sanctions on companies associated with the close Putin ally, 
Oleg Deripaska, in terms of his ability to retain some informal 
control? This isn't a typical American company that we're 
dealing with.
    Director Haspel. Senator Collins, I don't think I'm expert 
enough to comment on Treasury's decision, but what I will say 
is that we work very hard to make sure that every agency, and 
all of our senior agency leaders, understand Putin's 
methodologies and what he will do to try and achieve what he 
perceives as Russia's place in the world and as a great power 
status. Moscow continues to grapple with the effect of western 
sanctions. There have been very severe sanctions placed on 
them. I'm also, I think, as an Intelligence Community, both 
Director Wray and I were very pleased with the decision to 
expel 61 Russian intelligence officers. That has a tremendous 
impact on their ability to hurt us in our own homeland. So, our 
job is to make sure that everybody understands Putin's efforts 
to influence globally and to enhance Russia's power status in 
the world, and we will continue to support Treasury as they 
look to impose sanctions. I think Treasury has been very, very 
aggressive on the sanctions.
    Senator Collins. But did the CIA raise any concerns about 
the Treasury plan?
    Director Haspel. No, I don't believe we raised any 
concerns, but we provided all the supporting intelligence about 
the oligarch in question versus the aluminum company that 
you're referring to.
    Senator Collins. Let me switch to a different issue, and 
that is Syria. Let's assume that after we depart from Syria, 
the Assad regime takes control of northwest Syria and eastern 
Syria, which I think is a reasonable scenario. Should this 
happen, what kind of threat would the United States and its 
allies expect from the thousands of extremists who are still 
currently fighting in those areas of Syria, such as ISIS?
    Director Haspel. Senator Collins, to start with the last 
part of your question, everyone at this table is working very 
hard to make sure that we can finish the Defeat ISIS Campaign, 
and also that we understand the foreign fighter picture in 
eastern Syria and that we don't allow the foreign fighters that 
have been captured to return to the battlefield. It is, of 
course, accurate that ISIS has suffered significant leadership 
losses and near total loss of territorial control. But of 
course, they're still dangerous, which is your point, and 
they're the largest Sunni terrorist group, and they still 
command thousands of fighters in Iraq and Syria. So I think the 
stance in the Administration and supported by the IC is that 
we're going to work very hard to finish that mission and that 
we--that's another example of where we must maintain a very 
robust monitoring regime and retain the ability to project into 
Syria should we need to.
    Senator Collins. Director Coats, you looked like you wanted 
to add to that.
    Director Coats. Well, just to make the point that while we 
have defeated the Caliphate with a couple of little villages 
left, we should not underestimate the ability of terrorist 
groups, particularly ISIS and affiliated groups with al-Qaeda 
and other terrorist groups, that they are operating not simply 
on what takes place on the battlefield that gives them strength 
or weakness, but they are operating on the basis of a 
theocracy, a theology, an ideology that we will continue to see 
for perhaps years ahead in various places of the world. So, we 
see those that were engaged in Syria moving to other ungoverned 
spaces. We see the tentacles of ISIS and al-Qaeda tactics in 
different places in the world, such as North Africa and the 
Philippines. We've just seen that take place, ISIS claiming 
credit for that. So, ISIS will continue to be a threat to the 
United States, and we're going to have to continue, as Director 
Haspel said, to keep our eyes on that and our interest in the 
realization that this terrorism threat is going to continue for 
some time.
    Senator Collins. Thank you.
    Chairman Burr. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. Thank you for your 
welcoming me to the Committee. I apologize for being late, but 
I also want to say what a privilege it is to hear your 
testimony this morning and to know that you and agents and 
officers who work with you are at their posts keeping this 
democracy safe, and it is a reminder to me what's at stake when 
our partisan politics can't even keep our Government open. And 
you guys are still doing your work, and it's an inspiration to 
me, and I hope to the people that--whoever is watching this at 
home.
    And in that spirit actually, Director Coats, I wanted to 
start with something that you ended with, which was an 
observation about concerns that the IC has about political 
uncertainty in Europe and the ability of European democracies 
to push back on what you described as autocratic tendencies. 
Could you say a little bit more about that?
    Director Coats. Clearly Europe has seen Russian aggression 
in hybrid ways. Significant cyber incidents, trying to 
influence not only their view of our alliance, but their own 
view of their own alliance within Europe, seeking to sew 
divisions between countries and between Europe and the United 
States. It's interesting that some time ago at a meeting with 
NATO intelligence officials, the question was raised by the 
Director, did any of the 29 countries of Europe not see Russian 
influence in their countries and particularly in the political 
processes of those countries? Not one person raised their hand 
and said I have not seen that. All 29 have seen some type of 
influence from the Russians.
    So, it's a persistent threat and a pervasive threat that 
the EU needs to address, and we address with them through our 
NATO coordination. But I think the warning is there. I think 
the nations are aware of the threat. We see some issues that 
threaten some of the alliance coalition. Turkey is a member of 
NATO, and yet we're having some issues with Turkey. They're at 
a very geostrategic point in the world, and we've been happy to 
have them with NATO, so we'd like to keep them there. I don't 
know if I'm directly answering your question.
    Senator Bennet. You are. What about within the domestic 
politics of those countries? The autocratic impulses, whether 
aligned with Russia or not aligned with Russia?
    Director Coats. Well, I think there's a lot of wariness 
about aligning with Russia whether you're authoritarian 
leadership or not. We have seen some countries leaning in that 
direction, raising issues as to the strength of the alliance. A 
lot of that is related to the economy, to trade matters, to a 
number of issues beyond just the military.
    Senator Bennet. In the minute I have left, Director, if 
it's okay I wanted to switch to potential dual-use capabilities 
that China may attain through its One Belt and One Road 
Initiative. Recently there were reports that China may press 
Pakistan for military access.
    As Pakistan falls more and more into China's debt, I'm 
concerned about data access China may control through digital 
infrastructure projects in countries around the world. What is 
the IC's assessment of potential dual-use aspects of China's 
Belt and Road Initiative and what threats do they pose to U.S. 
interests?
    Director Coats. Well, I'd like to also----
    Senator Bennet. And where I would say?
    Director Coats. Well, you can look at the globe. It's 
called One Belt/One Road and its global. You can look at the 
map and see a lot of strategic places where China has real 
interest in perhaps a dual effort to not only provide 
infrastructure support, loan support for ports, airports, 
roads, a lot of infrastructure loans to help with their 
economy, but also interest in placing strategic military 
positions.
    We've seen that take place off the Horn of Africa. We've 
seen China looking at different--and if you look at the spots 
where they're--they are engaging and you see some geopolitical 
and military aspects. So it is dual and I'd like to turn to 
General Ashley to give you better detail of what that looks 
like.
    General Ashley. So, we can talk in a classified session 
about the nature of the relationship with Pakistan and I think 
that we can eliminate what you are seeking there.
    In terms of dual-use technologies there is a multitude of 
things out there and it's not necessarily germane to the Belt 
and Road Initiative. It's where they are investing and part of 
that investment is how they are garnering intellectual capital 
globally, but think about quantum from a communication 
standpoint, from a computing standpoint, from a sensing 
standpoint, what those advanced sensors could do, if you look 
at genetics, bioengineering.
    So, there is a multitude of things whether it gets into 
human engineering, it gets into how do you cure diseases but at 
the same time there's kind of the flipside nefarious aspect of 
that and so there is a plus and a negative side to the risk in 
the middle. There are agricultural aspects of that which are 
very positive but could have a negative impact as well.
    So, there's a number of things--in terms of advanced 
technologies where they are there investing--that have dual-use 
capabilities that will really mature over the course of the 
next decade.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Thanks to all of you. I want to join everybody in thanking 
you for what you do and the important service that you provide 
in securing our freedom and the freedom of lots of other 
people.
    General Ashley, I know we lost a St. Louisan in Syria as 
part of your defense intelligence operation and certainly reach 
out to their family and to the families of all who serve who 
put themselves at that level of risk.
    Director Cardillo, I saw ``60 Minutes'' over the weekend--
talked about small satellite data, about all of the commercial 
imagery available. If, as you come for what is your last likely 
appearance in this job before this Committee, there's a legacy 
that you're leaving it's bringing the commercial data community 
in, in a way that we are taking advantage of what's out there 
that we don't have to produce ourselves.
    But as we do that, what concerns do you have about cyber 
activity that might in some way impact that data or the data 
that we get in other places? How would you describe your 
concerns about cyber as it relates to commercial data that 
you've made great steps in using and the other geospatial that 
we produce ourselves that may be disrupted before it gets 
analyzed with information that's not really there?
    Director Cardillo. Thanks, Senator, for the question. I 
don't think there's a more important issue on my desk or I 
would offer the desk of my colleagues here and that is at the 
heart of our profession is integrity and credibility, 
reliability. That's how we get invited to meetings. That's how 
we get invited back to meetings to provide a sense of 
confidence to those that we serve to help them make decisions.
    What you just described as both an opportunity, that's the 
connection with new partners, nontraditional sources, small and 
large companies and universities, etc. Every one of those 
connections is also a threat or a risk, because if I'm now 
plugged into this new source, to gain benefit and understanding 
coherence, I'm also plugging into every aspect of vulnerability 
that they have. So we work on this very, very hard.
    I obviously count on the experts at NSA and FBI on the 
digital domain and the hygiene that's necessary. I will also 
say because it was brought up before, this issue of deepfake. 
As that technology advances, and it will, I do worry about as a 
community that needs to seek the truth and then speak the 
truth--in a world in which we can't agree on what's true, our 
job becomes much more difficult and so go back to your 
question.
    We have to do a better job at protecting what we do so that 
when we do show up you have the confidence, you know where it 
came from, you know how we handled it, you know who did or 
didn't affect or manipulate it. And so again, it's an issue 
that's in the center of my desk and all of our concerns.
    Senator Blunt. One more question for you, Director. In your 
plans for geospatial western, the development of that new 
facility replacing a 75-year-old facility in St. Louis which is 
fully redundant with what happens in Springfield, Virginia. The 
difference you're looking at is that 40 percent of the space in 
that plan is unclassified.
    How does IC work in an unclassified environment? How would 
you calculate success in your future view of how that works and 
why would it work that way in plowing some new ground in 
unclassified space in a classified facility?
    Director Cardillo. The short answer is very carefully. I 
will expand. So, some four years ago when I stepped into this 
privileged position, I challenged our team to think differently 
about our value proposition in a world that is much more open 
now in which there's many more sources of information, some 
good and some not so good.
    And so I coined a phrase that we need to succeed in the 
open. I modified that a few months later with some help from my 
teammates. I said what we really need to do is succeed with the 
open. And to your point about our new campus in St. Louis, 
which we couldn't be more excited about by the way the 
infrastructure is closer to 100 years old. But this is much 
more than an infrastructure project. I think of this as a new 
canvas. It's almost 100 acres. We can reimagine our profession 
on that campus, part of that re-imagination needs to be 
engagement with that open community in a way that's protected 
and that's knowing about who and what we are plugging into.
    So, we couldn't be more excited about the ability to take 
the opportunity that we have in St. Louis now, to redefine that 
value proposition in a more open world, in a more connected 
world, in a world in which we are taking on sources that we 
know and sources that we need to double and triple check. And 
so, the 40 percent that you referenced is just an estimate that 
we have now but we just want to build into that infrastructure 
knowing that we're going to have to work not just in but with 
the open and so that's why we've laid out that marker at the 
beginning.
    Senator Blunt. And General Nakasone, how does this fit into 
what you do, the whole idea of GEOINT, of individual personal 
geography, all of the things that we didn't used to have access 
to that we have access to--now not only using it but using it 
with confidence?
    General Nakasone. Senator, I think your initial question 
with regards to the data security is a very important one in 
the terms of how do we ensure the integrity and assurance of 
the data that Director Cardillo and the men and women of the 
NGA have to be able to leverage every single day in support of 
a number of different requirements whether or not it's policy 
makers, it's forward forces deployed. Our job is to assist in 
that and to make sure that that data is well-protected and we 
can rest assured that when we leverage it, it's the right time 
at the right place and at the right data that we need to be 
able to utilize it.
    Senator Blunt. Thank you. Thank you, Chairman.
    Director Coats. Mr. Chairman, if I could just add something 
here. Robert Cardillo is finishing up a 30+ year career of 
working with the Intelligence Community. He's just one of our 
crown jewels and we hate to see him moving on to maybe greener 
pastures and easier times. But he's just been a terrific 
partner with this team and I just wanted to recognize his 
contributions have just been exceptional. And he won the best 
dressed of any of us on the panel award this morning.
    Chairman Burr. He does that every time. I just want you to 
know that, Dan.
    Senator Harris.
    Senator Harris. Thank you, Mr. Chairman, and I join with my 
colleagues in thanking each of you and the men and women of 
your agencies for honoring the oath that they have taken and 
often with great sacrifice. So, thank them, please, from all of 
us.
    This question is for Directors Haspel, Coats, and General 
Ashley, and it's about North Korea. What would you say is the 
current state of the threat from North Korea? And perhaps we 
can start with Director Haspel.
    Director Haspel. Well briefly, of course the regime is 
committed to developing a long-range nuclear armed missile that 
would pose a direct threat to the United States. It is positive 
that we have managed to engage them in a dialogue. They have 
taken some voluntary measures to close a site, dismantle a 
site, but ultimately the objective is to lessen that threat by 
getting them to declare their program and then ultimately 
dismantle the program. I think others can probably add to that.
    Senator Harris. Director Coats.
    Director Coats. Well, I affirm what Director Haspel has 
just said. I think we continue to go into this situation eyes 
wide open. We want to employ the best of assets we can to 
understand what the Koreans are thinking--North Koreans are 
thinking--and what they're doing. We have capabilities which we 
can talk about in a secure session in terms of how we gather 
that information and how we assess that to give to our 
policymakers and to give to the negotiating partners relative 
to where we're going with North Korea.
    We hold to the stated premise that denuclearization is the 
goal which has to be achieved, but I will at that point just 
say I want to ensure the American people and ensure everybody 
listening here that we are fully engaged in providing the 
essential intelligence needed relative to the negotiations that 
are going on.
    Senator Harris. And in this setting can you say, at least 
since you've been in the position you've been in, that their 
threat, in terms of their ability to strike the United States, 
is diminished in any way?
    Director Coats. I think the assessments we've made up to 
this particular point hold. Obviously, as I mentioned in my 
opening statement, that over this past year we have not seen 
any evidence. They have not done missile--seen a nuclear 
missile testing or launching. So that's the position we're in 
right now. But again, we keep open eyes and open ears to 
exactly what's going on.
    Senator Harris. General.
    General Ashley. So, the technologies that they 
demonstrated--from a technical standpoint, they showed a 
capability to have an ICBM function still exists. There still 
is a substantial military capacity that Kim Jong-un wields. 
Seventy percent of his forces are along the DMZ. So, the 
capabilities and threat that existed a year ago are still 
there.
    Senator Harris. Thank you, General.
    Director Haspel, North Korea has obviously a terrible 
record of human rights, and they're deeply isolated, obviously, 
from the international community, and this is the result of 
many policies, intentional probably mostly. Do you believe that 
North Korea values the legitimacy that comes with direct 
diplomatic engagement with the United States?
    Director Haspel. Yes, I think our analysts would assess 
that they value the dialogue with the United States, and we do 
see indications that Kim Jong-un is trying to navigate a path 
toward some kind of better future for the North Korean people.
    Senator Harris. Are you aware of any intelligence 
suggesting that his behaviors and their human rights record has 
improved in any substantial way over the last couple of years?
    Director Haspel. It's obviously something we monitor to the 
degree possible. I do think that a vision for North Korea that 
further brings them into the community of nations would have a 
positive effect on our ability to influence them on important 
things like human rights.
    Senator Harris. But over the last couple of years have you 
seen any change in their behaviors?
    Director Haspel. I don't think I can point to any specific 
changes over the last couple years.
    Senator Harris. Thank you. And then Director Coats, 
changing the subject, I'd like to talk with you a bit about 
social media. And can you tell us, do we have a written 
strategy for how we're going to counter the influence 
operations that target social media in the United States?
    Director Coats. We are fully engaged in that issue. We have 
regular communication among the various sectors of the 
Intelligence Community. Much of that is shared, both verbally 
and in written form.
    Senator Harris. So there is a written strategy?
    Director Coats. Not a written single strategy, but we're 
always looking at how we can best address this. It's a fluid 
situation. We had an earlier discussion relative to our 
engagement with private-sector social media companies.
    Senator Harris. Thank you. My time is running out.
    Can you tell us, do you have any intention of having a 
written strategy that will be agreed to and understood by all 
members of the IC as it relates to the collective 
responsibility and individual responsibilities for addressing 
foreign influence on social media in the United States?
    Director Coats. As I said, it's a fluid situation. We are 
making significant progress on that. In terms of one specific 
written strategy, something that has to--will have to be looked 
at in a continuum of change. So, I'm not exactly sure why a 
written strategy would give us anything more--single strategy--
that would complete--have to be modified daily, but you can be 
assured that it is a top priority, as we have talked about 
before. It is something that we are working on, and we've seen 
very significant progress.
    Senator Harris. Mr. Chairman----
    Director Coats. And when you go back and read the 
transcript of what we talked about before, you'll understand 
that.
    Senator Harris. I actually have the transcript from 
February 13 of 2018 when you and I had this discussion at our 
last worldwide threats hearing, or at least a previous one, 
when I asked you then, would you provide us and would there be 
a written strategy for how the IC is dealing with these 
threats.
    So, can you tell us has there been any advancement on that 
point since February of 2018?
    Director Coats. I'll be happy to get back to you with that.
    Senator Harris. Thank you.
    Director Coats. You were referring to 2017? Is that my 
understanding?
    Senator Harris. No, 2018. We're in 2019 now.
    Director Coats. 2018. Okay, thank you.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you all very much for your appearance 
and your continued service to our Nation, and for all the men 
and women who work in your organizations serving our country. 
We've talked a lot about Huawei and ZTE today and the potential 
threats they pose. Let's just make this concrete for Americans 
watching at home. You can raise your hand if you respond yes to 
my questions. How many of you would use a telecom product made 
by Huawei and ZTE?
    Director Coats. Senator, I would person--I would think we 
ought to talk about these kinds of things in a separate, closed 
session. These are not all yes and no answers, and I think 
there is information here that could be better described in a 
closed session than an open session.
    Senator Cotton. Like a professional who has once been on 
the debate stage and not liked raise-your-hand questions, I'll 
simply say for the written record, though, that I saw no hands 
go up, and while I'll defer to the closed session, I suspect if 
I asked a fairer question, which is how many of you would 
recommend that people who are not heads of intelligence 
agencies, like your neighbors, or church members, or high 
school friends use Huawei and ZTE there would also be six no 
votes of confidence.
    Director Coats, in September the House Intelligence 
Committee voted by voice vote, which I presume means it was 
bipartisan--not controversial--to send to you several dozen of 
their transcripts in their investigation into Russia's 
interference in our 2016 election so they could release those, 
pending your classification review.
    Where does that review stand?
    Director Coats. That's another issue which I would like to 
discuss in a closed session.
    Senator Cotton. Thank you.
    Director Haspel, we've spoken some about ISIS today and the 
threat of ISIS if they were to reform. One ongoing threat from 
ISIS is that the Syrian Democratic Forces have a number of 
detainees from ISIS. Do you know how many detainees the SDF 
currently hold?
    Director Haspel. Senator, we do know the number. In this 
forum I'll say that they have hundreds of foreign fighters. The 
IC as a whole is working very, very hard to make sure we know 
who those are, return people to their country of origin, and to 
make sure that even as ISIS, as we continue to make gains 
against them on the battlefield, that these foreign fighters do 
not--are not able to return to the fight.
    And I can be more specific this afternoon in terms of the 
exact numbers.
    Senator Cotton. And could you speak broadly about the types 
of detainees? Are we talking about foot soldiers? Are we 
talking about major external operations planners, bomb makers, 
that sort of thing?
    Director Haspel. All of the above, Senator.
    Senator Cotton. So, it would be very bad for our Nation if 
those detainees were released?
    Director Haspel. I think it would be very bad, and the IC 
has taken great pains to categorize and make sure we know who 
these individuals are, and we, of course, are working very 
closely with our foreign allies to do just that.
    Senator Cotton. Thank you.
    Director Haspel, I'd like to stay with you and turn our 
attention to Russia since I know you have a lot of experience 
with that nation.
    Senator Cotton. President Putin has publicly stated that 
they are working on novel nuclear weapon systems like a 
nuclear-powered cruise missile, hypersonic glide vehicles, and 
underwater nuclear-powered torpedo. And just last month, he 
announced Russia's successful test of a hypersonic glide 
vehicle which he called a new intercontinental strategic 
system. Is it the case that some of these systems are being 
designed to explicitly evade the constraints of the New START 
Treaty?
    Director Haspel. Senator, I believe--and I can go into more 
detail this afternoon and I'm sure General Ashley would like to 
add but--I believe some of these systems have in fact been in 
development long before New START Treaty.
    Senator Cotton. General Ashley, do you have anything to 
add?
    General Ashley. Actually, if I could go back real quick to 
your Huawei question and then I'll come back to that one.
    When you look at the technology stuff and I think Huawei 
and ZTE are great examples, but I think the other complexity is 
the question really is do you know what's in your phone, not 
just is it a Huawei or a ZTE phone? Do you know who provided 
the chips, the software and everything that goes into your 
phone?
    We are tracking everything that you just addressed in terms 
of Putin. I'm not sure if any of that violates the New START 
Treaty, because right now, I know that the Russians are in 
compliance and what as you know New START lays out for the 
systems it can deliver, it's about 700, they can have 1,550 in 
the number of warheads and they can have 800 in the latter 
category in terms of other systems. I'm not aware that this 
violates and I'll take that one for a little bit of research as 
well, and we may be able to get that to you in the closed 
session this afternoon.
    Senator Cotton. Thank you.
    Director Haspel, one final follow-up question. So even if 
these systems don't violate the New START Treaty, I believe 
that both this and the past Administration has said that Russia 
is violating the Intermediate-Range Nuclear Forces Treaty, the 
Open Skies Treaty, the Chemical Weapons Convention, the 
Biological Weapon Convention, the Vienna Document, and is no 
longer adhering to the Presidential Nuclear Initiatives. Is 
there any treaty that Russia has with the United States to 
which they are currently adhering?
    Director Haspel. Well, the Russians obviously would have a 
different interpretation, but I do believe that you are correct 
in terms of State Department's assessment of Russian compliance 
with those treaties.
    Senator Cotton. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much and I want to apologize 
to all our distinguished panel. We had a major hearing in the 
Finance Committee.
    I'm going to start with the matter of Saudi Arabia and the 
late Mr. Khashoggi. I'm very concerned that the DNI statement 
for the record barely mentions the threat posed by Saudi Arabia 
to the rule of law around the world.
    Director Haspel, the Senate unanimously passed a resolution 
stating its belief that the Crown Prince was responsible for 
the murder of U.S. resident and journalist Jamal Khashoggi. Is 
that correct?
    Director Haspel. Senator, we can go into a little bit more 
detail this afternoon, but as you know during the fall months, 
we spent a significant amount of time briefing and providing 
written products on our assessment of what happened to Mr. 
Jamal Khashoggi.
    As you know, and as the Saudi regime itself has 
acknowledged, 15 individuals traveled to Istanbul and he was 
murdered at their consulate and it was a premeditated murder on 
2 October. The trial in Saudi Arabia, I believe, has begun but 
in terms of further detail on our assessment of involvement, 
I'll hold it until the afternoon session.
    Senator Wyden. Respectfully, Madam Director, the Senate 
unanimously passed a resolution that the Crown Prince was 
responsible. Was the Senate wrong?
    Director Haspel. Senator, it's my job to provide the 
intelligence to support the Senate's deliberations, and I think 
we've done that very adequately in this case and we'll continue 
to do that. And we continue, by the way, to track this issue 
and to follow it very closely.
    Senator Wyden. A question for you Director Wray and maybe 
other panel members.
    In my home State there are alarming indications that the 
Saudi government has helped Saudi nationals accused of serious 
crimes flee the country and this strikes us as an assault on 
the rule of law right here in the United States.
    My question for the Director, Director Wray, will you look 
at this and come back with any suggestions about what the FBI 
can do?
    And just so you know what has troubled me so much is what 
looks like evidence that the Saudi government helped these 
individuals who have been charged with really serious crimes in 
my home State: rape and manslaughter, helped them with illicit 
passports, possibly the prospect of private planes to get out 
of the country.
    Will you look at this and come back with any suggestions 
about what the Bureau can do here?
    Director Wray. Senator, I appreciate the question. I will 
say I've actually had occasion to visit the Portland field 
office not only to meet with all of our employees there but all 
of our State and local partners across your State and I'd be 
happy to take a close look at anything you want to send our way 
on this subject.
    Senator Wyden. Could you get back to me within 10 days? You 
know we are trying to up the ante here to really get these 
people back. You know, my sense is like a lot of other things 
people have a full plate. I've requested travel records. We 
will be in touch with your office, but I would like a response 
within 10 days to show that this is the priority that is 
warranted.
    Director Wray. Senator, of course we have a lot of 
priorities as I'm acutely aware of, but I'd be happy to take a 
look at the information that you have and work with your 
office.
    Senator Wyden. We have a lot of priorities, but the notion 
that Saudi Arabia can basically say it is above the law, and 
that's what it looks like to the people of my home State, is 
just unacceptable. So, I will be back at this and you and I 
have talked about matters before and both of us have strong 
views and that will certainly be the case here.
    Let me ask one other question for you, Director Haspel and 
Director Coats, to change the subject to Russia and 
particularly these Trump-Putin meetings. According to press 
reports, Donald Trump met privately with Vladimir Putin and no 
one in the U.S. Government has the full story about what was 
discussed.
    Director Haspel and Director Coats, would this put you in a 
disadvantaged position in terms of understanding Russia's 
efforts to advance its agenda against the United States? A 
question for you two and then I'm out of time. Thank you for 
letting me have them respond, Mr. Chairman.
    Director Coats. Well, Senator, clearly this is a sensitive 
issue and it's an issue that we ought to talk about this 
afternoon. I look forward to discussing that in a closed 
session.
    Senator Wyden. Mr. Chairman, my time is up. To me from an 
intelligence perspective, it's just Intel 101 that it would 
help our country to know what Vladimir Putin discussed with 
Donald Trump and I will respect the rules. Thank you, Mr. 
Chairman.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. When I reflect on the number of people who 
lost their lives as a result of man-made causes in World War 
II, by some estimates as many as 39 million people, when we 
introduced the atomic bomb and Nagasaki and Hiroshima and think 
about how much more efficient we've gotten when it comes to 
killing one another potentially, I wanted to ask you about 
weapons of mass destruction and counterproliferation.
    If the theory behind mutually assured destruction and 
deterrence is that none of the so-called rational actors, let's 
say Russia, China, for example, would use nuclear weapons 
because they realize what the consequences of that would be, we 
know we have less than rational actors that either have 
acquired nuclear weapons, thinking about North Korea--certainly 
Pakistan and India are staring at each other, both of whom have 
nuclear weapons. I worry that we are not spending as much time 
as we need to be focusing on what is the most lethal threat to 
our Nation and also to the world.
    Let me ask you specifically about Russia. We know Russia 
continues to be in material breach of the terms of the 
Intermediate-Range Nuclear Forces Treaty. Most recently our 
NATO allies have concluded that Russia is in the process of 
developing a ground-launched cruise missile that's a direct 
threat to Euro-Atlantic security.
    I personally think it's important for us to adequately fund 
nuclear modernization programs, including the development of a 
low-yield warhead and enhance the capabilities of critical 
missile defense systems. I would also point out that China is 
not bound by the standards imposed by the INF treaty, further 
putting the U.S. in a compromising position.
    Director Coats, does the Intelligence Community assess that 
a complete withdrawal of the U.S. from the INF Treaty would 
pose a significant national security risk to the United States?
    Director Coats. Well, that risk is there whether we see 
Russia within the bounds of the restraints on that or whether 
we don't, because we know Russia has violated the terms of that 
treaty and has that capability.
    Senator Cornyn. And China's not now----
    Director Coats. So, whether we withdraw or not----
    Senator Cornyn [continuing]. China's not now at all----
    Director Coats. You're--they're still going to have that 
capability. That's correct.
    Senator Cornyn. And Director Haspel, perhaps this would be 
a question for you.
    If the U.S. withdraws from the INF Treaty--and I'd welcome 
anybody's comment on the panel. If the U.S. withdraws from the 
INF Treaty, does the IC assess that Russia will place INF range 
missiles in Cuba, or will they attempt to exert pressure in 
some other way?
    Director Haspel. Senator, what I can say, and perhaps we 
can go into more detail this afternoon, is we do see that 
Russia is very concerned about our decision to withdraw. We do 
see also consideration of ways they can push back due to their 
own concerns about our forward posture in Eastern Europe.
    I think I'll leave it there for now, and we can elaborate 
this afternoon. I'll ask if General Ashley would like to add 
something.
    Senator Cornyn. Please.
    General Ashley. Yeah, I would say that--and we can get into 
some more detail this afternoon--that their actions are not 
consistent with the ground-launched cruise missile that you 
already spoke about. It has already been fielded operationally, 
so it is in utilization and available.
    Their actions and what they would do I think would be 
symmetric to anything we did to move additional capabilities 
forward. And then those particular symmetric actions we can 
talk about in a closed session.
    Senator Cornyn. Would anybody on the panel care to talk 
about my statement with regard to production of a low-yield 
warhead? Maybe General Ashley? I don't know who would be the 
appropriate person.
    General Ashley. So, the comment of whether we should be 
developing----
    Senator Cornyn. Correct.
    General Ashley. Yeah. I'll have to leave that to the 
policymakers. What you alluded to is our ability to kill and 
some of the weapons we've developed, and then the utilization 
and a strategy that we've heard in the past from the Russians 
of non-strategic nuclear weapons and whether or not a rational 
actor would use those kinds of weapons in the field.
    We know that the Russians have a first-use policy. The 
threshold where they think that the Kremlin would be at risk is 
probably what would drive that first use, whether that--see 
that as an escalatory control measure that they would put into 
place. I'll leave it to the policies--policy folks to determine 
the utilization of one of those weapons.
    When we talk about the use of nuclear weapons specifically, 
one of the things that--you know, the thresholds are pretty 
high on their use, which is why we see the manifestations of 
things like hybrid war. And if you look at great power 
conflict, it kind of flat-lined after World War II and things 
that have taken place in the world order that has been kind of 
the outgrowth of Bretton Woods. That--the other thing that has 
come to bear on keeping great power conflict at bay has been 
the development of nuclear weapons.
    Senator Cornyn. Thank you.
    Chairman Burr. Last but not least, Senator Sasse.
    Senator Sasse. Thank you, Mr. Chairman. Thank you to all 
six of you for being here. Thanks for your officers and to 
their families. You lead and represent a community of folks who 
often have family disruptions, and there aren't folks who know 
to thank them. So, on behalf of this Committee and the American 
people, thank you.
    General Nakasone, when you were confirmed before the Armed 
Services Committee, I asked you a question about whether or not 
Russia or China had ever suffered a sufficient response to 
their cyber aggressions to warrant behavior change on their 
behalf, and you said no, they had not. At this point, in a non-
classified setting, how would you answer that question today?
    General Nakasone. So, Senator, I think the--the way that I 
would answer the question is, first of all, what has changed 
since you and I talked last year is the fact that I think that, 
from our work collectively across the interagency and the 
Government, we have been able to show effectiveness against, 
primarily in this case, the Russians as we take a look at our 
midterm elections.
    Whether or not that spawns long-term behavior change, I 
think that's still to be determined. But certainly, this 
afternoon we can talk a little bit more about some of the 
things we have seen.
    Senator Sasse. Thank you for your work on that and your 
success. And I know, Director Coats, you're going to give us 
some briefing on that this afternoon as well. I know that a 
number of people on the Committee have been anxious to get a 
more fulsome report of some of the successes of the IC from 
early November. And I would just like to publicly say, whatever 
portion of that that we can declassify for the American people 
to know the successes of the U.S. Government and of your 
community, I would urge that kind of declassification where 
possible.
    Director Wray, you have many priorities at the Bureau, but 
can you talk about threats we face with the long-term tech 
war--tech race, maybe--against China? And domestically when you 
think about Bureau priorities looking at different Chinese 
actions inside the United States, how do you rank those 
priorities?
    Director Wray. Well, first, I would say that the--as I said 
earlier--that I think China writ large is the most significant 
counterintelligence threat we face. We have economic espionage 
investigations, for example--that's just one piece of it--in 
virtually every one of our 56 field offices. And the number of 
those has probably doubled over the last three or four years. 
And almost all of them, not all of them but most of them, lead 
back to China. In addition to the----
    Senator Sasse. Do you have anywhere near sufficient 
resources for all those investigations? Many of us used to ask 
Director Comey about Jihadi threats against the United States. 
We would regularly ask: is the Bureau sufficiently resourced? 
And we were told that as long as the U.S. was active killing 
Jihadis or partnering with allies in Syria to kill a lot of 
Jihadis who were there, he thought there were sufficient 
domestic resources in the Bureau.
    For counterintelligence and for corporate espionage 
purposes, are you sufficiently resourced?
    Director Wray. Well, I would say this. If the Congress were 
to entrust us with more resources, I can assure you we would 
put them to very good use.
    Senator Sasse. We've talked about deepfakes a couple of 
different times today. Our Intelligence Community is a product 
of history. Seventeen agencies is not the way anybody would 
design it from scratch, but that doesn't necessarily mean a 
reorganization is always simplifying. Oftentimes you create 
more complexity when you're trying to get rid of some of the 
duplicative functions that we have across different agencies.
    But when you think about the catastrophic potential to 
public trust and to markets that could come from deep fake 
attacks, are we--Director Coats and Director Haspel in 
particular, are we organized in a way that we could possibly 
respond fast enough to a catastrophic deepfakes attack?
    Director Coats. We certainly recognize the threat of 
emerging technologies and the speed at which that threat 
increases. We clearly need to be more agile. We need to partner 
with our private sector.
    We need to resource our activities relative to dealing with 
these known technologies and unknown technologies, which we 
know are going to appear anytime soon because it's just a very 
quickly evolving flood of technological change that poses a 
major threat to the United States and something that the 
Intelligence Community needs to be restructured to address.
    We are in a process of transformation right now which 
incorporates six major pillars that we have to put resources 
and activity against, and fast. Cyber, trusted agile workforce, 
artificial intelligence, private sector partnerships, data 
management, acquisition agility. All six of these are major 
issues which we have to transform. We cannot rely on status 
quo, where we are now. We're the best in the world. We have to 
stay the best in the world. But we've got real competitors, and 
technology is giving them the opportunity to shorten that gap 
very, very significantly.
    And so, we have a dedicated commitment to this 
transformation. It's called IC 2025. What do we have to be in 
2025, but let alone 2019 and 2020? And we are using that 
throughout all 17 agencies in terms of how we have to adapt to 
that. And that's a major change that this IC has to go through. 
But we're fully intent on making it happen.
    Senator Sasse. Thanks, Director. Before the Chairman gavels 
out a rookie, Director Haspel, are you confident that we could 
respond fast enough?
    Director Haspel. I think Director Coats captured it very 
well. I would say that, while the IC is large and unwieldy in 
some respects, I don't think in my 34-year career I've seen 
better coordination or synchronization or collaboration among 
the agencies to try and stay abreast of the technological 
challenges.
    Senator Sasse. I hear that and I've been reading ``Intel 
Daily'' now for 18 months. And the pace of upgraded game on the 
part of the community is a real testament for all of your 
leadership, but I still think the asymmetric exposure we have 
or the barrier to entry for deepfake technology is so low now, 
lots of entities, short of nation state actors, are going to be 
able to produce this material and again destabilize not just 
American public trust, but markets very rapidly. And I think we 
need to be thinking about not just IC 2025 but IC 2021, 2020, 
2019.
    General Ashley. If I could just real quick just go back to 
our opening question from the Chairman, when he said are you 
concerned about our protection of data. So how do you get 
deepfakes that are really, really good, lots of data? That's 
how you train your algorithms. So, it goes back to kind of 
where we started and the ability to protect that information, 
to preclude the training of those algorithms to a degree where 
you cannot tell the difference. And again, our challenge is how 
do you build the algorithm to identify the anomaly because 
every deep fake as a flaw, at least now they do.
    Senator Sasse. Thanks, General.
    Vice Chairman Warner. Thank you, Mr. Chairman. I would just 
want to make one final brief remark and commend Director Coats 
on the ongoing efforts to make sure that we get through the 
backlog on the security clearance reform. The Chairman and I 
have worked on this very hard. We appreciate the progress that 
has been made. I hope we can. I think we're down to about 
500,000. I think we can do much, much better. And my hope would 
be that particularly any Federal employee that might have had 
some level of a credit dinging due to the shutdown would not be 
penalized through that security clearance process for, again, 
actions, quite frankly, that they had no ability to remediate. 
It was our responsibility.
    Director Coats. We will continue to operate carefully with 
you, also. You played a major role in all of this. We have made 
some progress. It's not enough, it's not fast enough. The 
shutdown deferred some tasks that we could have accomplished if 
the process was opened and hopefully we won't have to go 
through that again.
    Chairman Burr. I thank the Vice Chairman for his comments. 
I promised all of you ample time for nutrition in between 
sessions and I think we have accomplished that.
    I want to thank you for your testimony today in open 
session. The Intelligence Community has always prided itself on 
making the impossible happen. You go where others cannot. You 
find what cannot be found. You discover and uncover and create.
    This Committee has been privileged to see behind closed 
doors some of the truly fantastic innovations that are the 
products of your drive to accomplish impossible missions. 
Sometimes these come from the minds of in-house geniuses. 
Sometimes they are the fruits of successful collaboration with 
contractors. These public-private partnerships have always been 
at the core of American success stories.
    However, as with any good competition, our adversaries have 
watched carefully, and they seem to be catching up. Director 
Coats, you note in your statement for the record that for 2019 
and beyond, the innovations that drive military and economic 
competitiveness will increasingly originate outside the United 
States. As the overall U.S. lead in science and technology 
shrinks, the capability gap between commercial and military 
technologies evaporates and foreign actors increase their 
efforts to acquire top talent companies, data, and intellectual 
property via licit or illicit means.
    Innovation is a global race and we must think about how to 
foster greater innovation at home, mitigate potential risks, 
and maintain our competitive edge. There is no easy path, but 
if we concede the innovation race, not only our global 
competitiveness, but our national security will in fact be at 
risk. We need to make sure we are monitoring and acting on 
threat information as quickly as possible and getting the 
information to the people who need it the most.
    The Federal Government should educate the private sector on 
threats, which we are, and enable a regulatory and financial 
environment that enables innovation. In turn the private sector 
needs to listen better and be constructive and thoughtful 
partners. The simple truth is that we need each other and only 
through collaboration can we regain in our lead. The 
architecture of government must change, and our partnerships 
must grow.
    In closing, please convey this Committee's gratitude to the 
men and women of the Intelligence Community for the work that 
they do on a daily basis. The American people should know that 
their hard work, dedication, and innovation are crucial to 
protecting this country and the democratic principles on which 
we stand. Although the threats we now face are dynamic, varied, 
and numerous, I'm confident the Intelligence Community will 
continue delivering on their mandate to reduce uncertainty in 
an increasingly uncertain world. With that, this portion of the 
hearing is adjourned, and we'll gather again at 1:00 p.m.
    [Whereupon the hearing was adjourned at 11:52 a.m.]

                         Supplemental Material
                         
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre></body></html>
